<html>
<title> - THE NEXT IT REVOLUTION? CLOUD COMPUTING OPPORTUNITIES AND CHALLENGES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                        THE NEXT IT REVOLUTION?:
              CLOUD COMPUTING OPPORTUNITIES AND CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                     WEDNESDAY, SEPTEMBER 21, 2011

                               __________

                           Serial No. 112-36

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



       Available via the World Wide Web: http://science.house.gov


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
68-317PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               GABRIELLE GIFFORDS, Arizona
W. TODD AKIN, Missouri               DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARCIA L. FUDGE, Ohio
MICHAEL T. McCAUL, Texas             BEN R. LUJAN, New Mexico
PAUL C. BROUN, Georgia               PAUL D. TONKO, New York
SANDY ADAMS, Florida                 JERRY McNERNEY, California
BENJAMIN QUAYLE, Arizona             JOHN P. SARBANES, Maryland
CHARLES J. ``CHUCK'' FLEISCHMANN,    TERRI A. SEWELL, Alabama
    Tennessee                        FREDERICA S. WILSON, Florida
E. SCOTT RIGELL, Virginia            HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

               Subcommittee on Technology and Innovation

                  HON. BENJAMIN QUAYLE, Arizona, Chair
LAMAR S. SMITH, Texas                VACANCY
JUDY BIGGERT, Illinois               JOHN P. SARBANES, Maryland
RANDY NEUGEBAUER, Texas              FREDERICA S. WILSON, Florida
MICHAEL T. McCAUL, Texas             DANIEL LIPINSKI, Illinois
CHARLES J. ``CHUCK'' FLEISCHMANN,    GABRIELLE GIFFORDS, Arizona
    Tennessee                        BEN R. LUJAN, New Mexico
E. SCOTT RIGELL, Virginia                
RANDY HULTGREN, Illinois                 
CHIP CRAVAACK, Minnesota             EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas















                            C O N T E N T S

                              Hearing Date

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Benjamin Quayle, Chairman, 
  Subcommittee on Technology and Innovation, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     7
    Written Statement............................................     8

Statement by Representative Ben R. Lujan, Subcommittee on 
  Technology and Innovation, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

                               Witnesses:

Mr. Michael Capellas, Chairman and CEO, Virtual Computing 
  Environment Company; Co-Chairman, Commission on the Leadership 
  Opportunity in U.S. Development of the Cloud ``CLOUD\2\,''
    Oral Statement...............................................    11
    Written Statement............................................    13

Dr. Dan Reed, Corporate Vice President, Technology Policy Group, 
  Microsoft Corporation; Vice Chairman, ``CLOUD\2\''
    Oral Statement...............................................    19
    Written Statement............................................    20

Mr. Nick Combs, Federal Chief Technology Officer, EMC Corporation
    Oral Statement...............................................    27
    Written Statement............................................    30

Dr. David McClure, Associate Administrator, Office of Citizen 
  Services and Innovative Technologies, General Services 
  Administration
    Oral Statement...............................................    41
    Written Statement............................................    42

             Appendix I: Answers to Post-Hearing Questions

Mr. Michael Capellas, Chairman and CEO, Virtual Computing 
  Environment Company; Co-Chairman, Commission on the Leadership 
  Opportunity in U.S. Development of the Cloud ``CLOUD\2\,''.....    62

Dr. Dan Reed, Corporate Vice President, Technology Policy Group, 
  Microsoft Corporation; Vice Chairman, ``CLOUD\2\''.............    64

Mr. Nick Combs, Federal Chief Technology Officer, EMC Corporation    67

Dr. David McClure, Associate Administrator, Office of Citizen 
  Services and Innovative Technologies, General Services 
  Administration.................................................    69

       Appendix II: Additional Materials Submitted for the Record

Representative Ben R. Lujan, Subcommittee on Technology and 
  Innovation, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    74


 
                        THE NEXT IT REVOLUTION?
              CLOUD COMPUTING OPPORTUNITIES AND CHALLENGES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 21, 2011

                  House of Representatives,
         Subcommittee on Technology and Innovation,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Ben Quayle 
[Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                        The Next IT Revolution:

              Cloud Computing Opportunities and Challenges

                     wednesday, september 21, 2011
                        10:00 a.m. - 12:00 p.m.
                   2318 rayburn house office building

I. Purpose

    On Wednesday, September 21, 2011, the Subcommittee on Technology 
and Innovation will convene a hearing to examine the potential 
opportunities and challenges associated with cloud computing, and to 
assess the appropriate role of the Federal Government in the cloud 
computing enterprise. The hearing will focus on: innovation and 
efficiency opportunities associated with cloud computing; challenges 
restraining the widespread adoption of cloud computing; and federal 
cloud computing adoption initiatives.

II. Witnesses

    <bullet>  Mr. Michael Capellas, Chairman and CEO, Virtual Computing 
Environment Company; Co-Chairman, Commission on the Leadership 
Opportunity in U.S. Development of the Cloud ``CLOUD\2\,'' a commission 
launched by TechAmerica Foundation to provide federal policy 
recommendations for cloud computing.

    <bullet>  Dr. Dan Reed, Corporate Vice President, Technology Policy 
Group, Microsoft Corporation; Vice Chairman, ``CLOUD\2\''

    <bullet>  Mr. Nick Combs, Federal Chief Technology Officer, EMC 
Corporation

    <bullet>  Dr. David McClure, Associate Administrator, Office of 
Citizen Services and Innovative Technologies, General Services 
Administration

III. Brief Overview

    Cloud computing has significant implications for the way 
businesses, scientists, and governments access and use information 
technology (IT). It enables users to remotely access scalable, high-
powered computing services via broadband networks from a range of 
devices, all on-demand. Cloud computing has the potential to provide 
users with increased computing capability, greater efficiency, and 
lower energy and infrastructure costs.
    Cloud computing is not new. While many people may not be familiar 
with the term, ``cloud computing,'' anyone who uses a web-based email 
account, such as Gmail or Hotmail, or that uses file-sharing social 
networking sites, such as Facebook, is already a user of cloud 
computing services. The data and applications on these sites are hosted 
on remote servers owned and operated by the service provider, rather 
than on an individual's hard drive.
    Cloud computing promises to provide new ways of managing 
information for the public and private sector. Some of cloud 
computing's opportunities include cost savings on IT infrastructure and 
maintenance, increased access to high-powered computing applications 
for both business and academic researchers, and greater data and file 
accessibility for consumers.
    However, there are also many challenges associated with cloud 
computing. Cloud consumers need assurances that their data will be 
secure in the cloud. Without confidence that security and privacy 
concerns are addressed, users may be hesitant to adopt cloud services. 
Users also want assurances that they will have ubiquitous access to 
cloud services. Therefore, network resiliency and broadband 
accessibility are crucial factors in determining cloud adoption. Users 
want the ability to move their data and applications from one service 
provider to another, so portability and interoperable standards within 
the cloud are key issues. Additional concerns of cloud users and 
service providers include liability and regulations governing cloud 
usage.
    Witnesses have been asked to provide their insights on the 
opportunities that cloud computing offers to users and service 
providers, the primary challenges facing cloud computing users and 
service providers including security concerns, federal government 
initiatives to adopt cloud computing services, and the appropriate role 
of the federal government in the cloud computing enterprise, including 
in the development of standards.

IV. NIST Definition of Cloud Computing

    The National Institute of Standards and Technology (NIST) has 
worked with various cloud stakeholders to develop a definition for 
cloud computing: ``a model for enabling ubiquitous, convenient, on-
demand network access to a shared pool of configurable computing 
resources (e.g., networks, servers, storage, applications, and 
services) that can be rapidly provisioned and released with minimal 
management effort or service provider interaction.'' \1\
---------------------------------------------------------------------------
    \1\ National Institute of Standards and Technology, U.S. Department 
of Commerce, Special Publication 800-145: NIST Definition of Cloud 
Computing (DRAFT) 2 (2011).
---------------------------------------------------------------------------
    To encompass all aspects of cloud computing, NIST identifies five 
essential characteristics, three service models, and four deployment 
models of cloud computing.

Essential characteristics: \2\
---------------------------------------------------------------------------
    \2\  Ibid; Computer and Communications Industry Association,Public 
Policy for the Cloud: How Policymakers Can Enable Cloud Computing 
(2011), available online at http://www.ccianet.org

    <bullet>  On-demand self-service. Users can access cloud computing 
---------------------------------------------------------------------------
services at any time.

    <bullet>  Broad network access. Services are available over the 
Internet using any web-connected device.

    <bullet>  Resource pooling. Providers can serve multiple users 
simultaneously.

    <bullet>  Rapid elasticity. Cloud computing services can be scaled 
to meet user need.

    <bullet>  Measured service. Cloud users only pay for the services 
they consume, and can adjust this usage based on need.

Service models: \3\
---------------------------------------------------------------------------
    \3\ Ibid

    <bullet>  Software as a Service (SaaS). Enables a user to access 
provider applications from any device through a web browser. Users do 
not manage or control any underlying infrastructure such as servers, 
operating systems, storage, or application settings. The infrastructure 
---------------------------------------------------------------------------
is managed by the cloud provider.

    <bullet>  Platform as a Service (PaaS). Enables a user to deploy 
user-created or acquired applications on the cloud using programming 
tools supported by the provider. The user does not manage the 
infrastructure (servers, storage, etc) but has control over the 
deployed applications.

    <bullet>  Infrastructure as a Service (IaaS). Enables a user to 
rent and manage cloud infrastructure from a provider, and to deploy its 
own applications and software, including operating systems.

Deployment models: \4\
---------------------------------------------------------------------------
    \4\ Ibid

    <bullet>  Private cloud. The cloud infrastructure is operated 
solely for an organization, and may be managed by the organization or 
---------------------------------------------------------------------------
by a third-party, and may exist on-site or off-site.

    <bullet>  Community cloud. The cloud infrastructure is shared by 
several organizations and supports a specific community with shared 
concerns. The infrastructure may be managed by the organizations or by 
a third-party, and may exist on-site or off-site.

    <bullet>  Public cloud. The cloud infrastructure is available to 
the public at large and is owned and managed by the service provider.

    <bullet>  Hybrid cloud. The cloud infrastructure is made up of two 
or more clouds (private, community, public) which remain separate, but 
share certain technology to enable data portability between clouds.

V. Cloud Computing Opportunities

Cloud computing promises benefits to businesses, individuals, 
researchers, and governments.

Opportunities for Business

    Businesses can reduce their IT overhead by migrating computing 
functions to the cloud. This may lower cost barriers for startup 
companies by not requiring expensive IT hardware and infrastructure 
purchases in the early stages of growth. Cloud elasticity also enables 
businesses to pay for only the services and computing power that they 
actually use. This can prevent the problem of purchasing excess 
infrastructure capacity that may go unused, or having too little 
infrastructure to accomplish key work requirements. Cloud computing can 
also enable more businesses in data-intensive fields to access high 
powered computing resources, helping to level the playing field between 
smaller and larger companies.

Opportunities for Individuals

    Cloud computing can provide consumers with unlimited access to data 
files from remote locations using a range of Internet-connected 
devices. Changes that users make to files and data stored on the cloud 
from one device or location will be updated when the user accesses 
their files and data from a different device or location.

Opportunities for Researchers

    Cloud computing can enable greater collaboration between scientists 
and researchers both domestically and internationally. It can also 
provide scientists with more computing power allowing them to run high-
powered simulations that were previously restricted only to those with 
supercomputing access. Cloud computing may also reduce the amount of 
time that researchers and scientists need to set up IT infrastructure 
and increase the time spent on performing research.

Opportunities for the Federal Government

    Cloud computing has the potential to reduce federal government IT 
expenditures by a considerable margin. A major portion of federal IT 
budgets is spent on infrastructure and maintenance. Migrating computing 
functions to the cloud may greatly reduce these costs helping to reduce 
taxpayer funding for these activities.

VI. Cloud Computing Challenges

    There are a range of challenges that have prevented more widespread 
adoption of cloud computing. Some of these challenges include concerns 
about security and privacy, access and network resiliency, data 
portability and standards, and liability protection. Each of these 
issues has potential policy implications for the Federal Government.

Security and Privacy

    Users of cloud services must have the confidence that their data 
and applications are secure. Different businesses and government 
agencies will require more robust security thresholds to protect more 
sensitive data. Cloud computing service providers must be able to offer 
these tiered service levels. While cloud computing can make it easier 
for providers to continuously update security applications, it may also 
offer a bigger ``target'' for malicious actors, requiring stronger 
security standards and redundancy.

Network Access, Availability and Resiliency

    Users of cloud computing services will require access to services 
at any time from any device with an Internet connection. However, there 
are concerns that current broadband networks may not be able to provide 
constant on-demand access if cloud adoption grows. Network outages 
preventing users from accessing applications or data on the cloud could 
have severe effects on business and government operations. 
Consequently, lack of confidence in network reliability may inhibit 
cloud computing adoption. Lack of adequate broadband access in areas 
where businesses are located or in areas where users want to access 
services remotely will likewise limit further widespread cloud 
computing adoption.

Data Portability and Standards

    Users of cloud computing services require the assurance that they 
can move their data and applications to different cloud service 
providers if they feel a change would be beneficial to them, so 
computing standards to enable portability and interoperability are 
critical to the agility of the cloud. While standards can provide for 
greater mobility, they can also inhibit innovation if they are too 
prescriptive or have been adopted before markets determine certain 
technology preferences.

Liability and Regulations

    Lack of certainty associated with the laws and regulations 
governing migration of services to cloud computing has prevented more 
widespread adoption. Different industries face different regulatory 
frameworks which exacerbate problems of uncertainty. Liability concerns 
associated with data protection may prevent companies from migrating 
data away from their direct control. Finally, because liability and 
data storage regulations differ among countries, companies may be 
hesitant to expose themselves to potential lawsuits by migrating 
services to the cloud.

VII. Federal Initiatives on Cloud Computing

    The Office of Management and Budget (OMB) has estimated that the 
Federal Government could move 25 percent of its IT spending to the 
cloud. In early 2011 the White House's Chief Information Officer 
released a Federal Cloud Computing Strategy \5\, known as ``Cloud 
First'', which requires agencies to evaluate whether using cloud 
computing is an option before making new IT purchases.
---------------------------------------------------------------------------
    \5\ http://www.cio.gov/documents/Federal-Cloud-Computing-
Strategy.pdf
---------------------------------------------------------------------------
    In early 2010, the White House released the OMB 25 Point 
Implementation Plan to Reform Federal Information Technology Management 
\6\. This document described government-wide policies to maximize the 
efficiency and management of Federal IT resources.
---------------------------------------------------------------------------
    \6\ http://www.cio.gov/documents/25-Point-Implementation-Plan-to-
Reform-Federal%20IT.pdf
---------------------------------------------------------------------------
    As part of the OMB 25 Point Implementation Plan, the Obama 
Administration launched a Federal Data Center Consolidation Initiative 
(FDCCI) \7\ to consolidate the Federal Government's data center 
environment by eliminating a minimum of 800 of the more than 2000 
physical data centers by 2015. Data center growth and affiliated costs 
are considered unsustainable and cloud computing offers a means of 
reducing the number of centers. Currently, as part of this initiative, 
more than 350 physical data centers have been identified by agencies 
for planned closings before the end of 2012 \8\.
---------------------------------------------------------------------------
    \7\  http://www.cio.gov/documents/Federal-Data-Center-
Consolidation-Initiative-02-26-2010.pdf
    \8\  http://explore.data.gov/Federal-Government-Finances-and-
Employment/Federal-Data-Center-Consolidation-Initiative-FDCCI/d5wm-
4c37?
---------------------------------------------------------------------------
    As part of its responsibilities under the Federal Information 
Security Management Act (FISMA), the National Institute of Standards 
and Technology (NIST) must provide Federal Information Processing 
Standards (FIPS) and guidelines for agencies to use. As an agency 
considers migrations to cloud computing, NIST must develop the 
appropriate consensus standards and guidelines to ensure a secure and 
trustworthy environment for federal information.
    The General Services Administration (GSA) performs a coordinating 
role in the Administration's IT Management Reform Agenda. GSA 
facilitates access to cloud-based solutions from private sector 
providers that meet federal requirements for federal entities, works 
with NIST and other federal agencies to assess and authorize cloud 
computing services through the Federal Risk and Authorization 
Management Program (FedRAMP), and identifies potential multi-agency or 
government-wide uses of cloud computing solutions. \9\ GSA also manages 
apps.gov as an e-commerce website for federal entities to purchase 
cloud computing products and services.
---------------------------------------------------------------------------
    \9\  Testimony of Dr. David McClure, General Service 
Administration, before the Senate Committee on Homeland Security and 
Governmental Affairs, Subcommittee on Federal Financial Management, 
Government Information, Federal Services, and International Security, 
April 12, 2011.
---------------------------------------------------------------------------
    Internally, GSA has implemented an agency-wide cloud-based email 
solution, has moved certain GSA-managed web sites (including usa.gov 
and data.gov) to cloud hosted environments, and expects to reduce its 
government owned data centers from 15 to three by Fiscal Year 2015, 
among other cloud computing initiatives. \10\ Other federal agencies 
are making efforts towards implementing the Administration's Federal 
Cloud Computing Strategy with varying degrees of progress. National 
security agencies, including the Department of Defense and the 
Department of State, may be more hesitant about migrating sensitive 
information and data to a cloud environment.
---------------------------------------------------------------------------
    \10\ Ibid.
---------------------------------------------------------------------------
    The NIST Cloud Computing Program aims to shorten the adoption cycle 
for cloud, which will enable near-term cost savings and increased 
ability to quickly create and deploy enterprise applications. NIST aims 
to foster cloud computing systems and practices that support 
interoperability, portability, and security requirements that are 
appropriate and achievable for important usage scenarios. \11\ NIST has 
published a Cloud Computing Standards Roadmap \12\, Cloud Computing 
Reference Architecture \13\, a Draft Cloud Computing Synopsis and 
Recommendations \14\, and has held three forums and workshops bringing 
together government, industry and private stakeholders in support of 
these efforts.
---------------------------------------------------------------------------
    \11\ http://www.nist.gov/itl/cloud/index.cfm
    \12\ NIST Special Publication 500-291
    \13\ NIST Special Publication 500-292
    \14\ NIST Special Publication 800-146


    Chairman Quayle. Good morning. Welcome to today's hearing 
entitled ``The Next IT Revolution?: Cloud Computing 
Opportunities and Challenges.'' In front of you are packets 
containing the written testimony, biographies, and truth-in-
statement disclosures for today's witnesses. I will now 
recognize myself for five minutes for an opening statement.
    Good morning. I would like to welcome everyone to today's 
hearing, which is being held to examine the opportunities and 
challenges presented by cloud computing and to analyze the 
appropriate role of federal policy in the growing cloud 
computing enterprise. Over the last few decades, developments 
in the IT sector have driven our country's economic growth. 
Cloud computing has the potential to be the next wave. Its 
widespread adoption offers significant opportunities for new 
innovation and productivity gains for both the public and 
private sectors.
    Users of cloud computing services will be able to access 
high-powered computing functions from a range of devices that 
previously were only available to entities with large IT 
infrastructure budgets. Cloud services will also allow 
individuals to share information with colleagues in real time, 
dramatically increasing opportunities for collaboration.
    The adoption of cloud computing has the potential to 
significantly reduce IT infrastructure and maintenance costs. 
Because these services are elastic, individuals will only pay 
for the computing services they consume and will no longer have 
to worry about over-investing or under-investing in IT. 
Companies can potentially use these savings to help grow and 
expand their businesses, while governments will be able to 
reduce their massive taxpayer-funded IT budgets.
    Finally, cloud computing provides its users with unlimited 
access to data and applications from any Internet-connected 
device.
    While the benefits of cloud computing are vast, there are a 
wide range of challenges that will need to be addressed before 
its potential is fully realized.
    Cybersecurity is a major concern for many users who are 
considering moving their computing functions to the cloud. 
Users must have confidence that their data and applications 
will be secure and that their privacy will be protected. 
Further, cloud service providers will need to offer users 
different tiers of security depending on the sensitivity of 
their data.
    Widespread adoption of cloud computing requires broad 
network access and resiliency. With increased reliance on the 
cloud for computing functions, broadband networks must be up to 
the task of handling the massive amounts of data that will be 
transmitted over the Internet. Users will also want assurances 
that they will be able to transport their data and applications 
from one service provider to another. Therefore, the 
development of interoperable standards is a key issue. But, as 
we have often discussed in this Subcommittee, it is important 
that these are consensus-based standards that will not be so 
rigid that they inhibit the opportunities for innovation that 
cloud computing offers. Finally, liability will need to be 
addressed to reflect the new cloud-computing paradigm.
    While these are only a few of the relevant issues, it 
provides a sense of the challenges confronting industry, 
consumers, and policymakers in determining the appropriate path 
forward for this technology.
    We have an excellent panel of IT industry witnesses who 
will share their insights on these topics with us. We have also 
asked each of our industry witnesses to comment on the 
appropriate role of the Federal Government in cloud computing. 
Further, we will hear about the General Services 
Administration's efforts to adopt cloud computing services and 
enable other federal agencies to do the same.
    I would like to extend my appreciation to each of our 
witnesses for taking the time and effort to appear before us 
today. We look forward to your testimony.
    And I now recognize the gentleman from New Mexico, Mr. 
Lujan, for his opening statement.
    [The prepared statement of Mr. Quayle follows:]

               Prepared Statement of Chairman Ben Quayle
    Good Morning. I'd like to welcome everyone to today's hearing, 
which is being held to examine the opportunities and challenges 
presented by cloud computing, and to analyze the appropriate role of 
federal policy in the growing cloud computing enterprise.
    Over the last few decades, developments in the IT sector have 
driven our country's economic growth. Cloud computing has the potential 
to be the next wave. Its widespread adoption offers significant 
opportunities for new innovation, and productivity gains for both the 
public and private sectors.
    Users of cloud computing services will be able to access high-
powered computing functions from a range of devices that previously 
were only available to entities with large IT infrastructure budgets. 
Cloud services will also allow individuals to share information with 
colleagues in real time, dramatically increasing opportunities for 
collaboration.
    The adoption of cloud computing has the potential to significantly 
reduce IT infrastructure and maintenance costs. Because these services 
are elastic, individuals will only pay for the computing services they 
consume, and will no longer have to worry about over-investing or 
under-investing in IT. Companies can potentially use these savings to 
help grow and expand their business, while governments will be able to 
reduce their massive taxpayer-funded IT budgets.
    Finally, cloud computing provides its users with unlimited access 
to data and applications from any Internet-connected device.
    While the benefits of cloud computing are vast, there are a range 
of challenges that will need to be addressed before its potential is 
fully realized.
    Cybersecurity is a major concern for many users who are considering 
moving their computing functions to the cloud. Users must have 
confidence that their data and applications will be secure and that 
their privacy will be protected. Further, cloud service providers will 
need to offer users different tiers of security depending on 
sensitivity of their data.
    Widespread adoption of cloud computing requires broad network 
access and resiliency. With increased reliance on the cloud for 
computing functions, broadband networks must be up to the task of 
handling the massive amounts of data that will be transmitted over the 
Internet.
    Users will also want assurances that they will be able to transport 
their data and applications from one service provider to another. 
Therefore, the development interoperable standards is a key issue. But, 
as we have often discussed in this Subcommittee, it is important that 
these are consensus-based standards that will not be so rigid that they 
inhibit the opportunities for innovation that cloud computing offers.
    Finally, liability will need to be addressed to reflect the new 
cloud-computing paradigm.
    While these are only a few of the relevant issues, it provides a 
sense of the challenges confronting industry, consumers, and 
policymakers in determining the appropriate path forward for this 
technology.
    We have an excellent panel of IT industry witnesses who will share 
their insights on these topics with us. We have also asked each of our 
industry witnesses to comment on the appropriate role of the federal 
government in cloud computing. Further, we will hear about the General 
Services Administration's efforts to adopt cloud computing services and 
enable other federal agencies to do the same.
    I'd like to extend my appreciation to each of our witnesses for 
taking the time and effort to appear before us today. We look forward 
to your testimony.

    Mr. Lujan. Thank you, Chairman Quayle. And good morning to 
our witnesses as well. I want to thank you all for being with 
us for this important hearing to examine both the benefits and 
risks of cloud computing.
    As you all know, and as I expect you will hear from our 
witnesses today, cloud computing has many potential benefits. 
By sharing IT capabilities in the cloud, individuals, 
businesses, and government agencies are able to leverage their 
resources more effectively. They need only pay for what they 
use and can easily scale up or ramp down the computing power or 
amount of data storage they need.
    In addition to lowering capital investment, cloud computing 
allows people to access their files and applications from 
anywhere at any time using everything from their home computer 
to their tablet or smartphone, as long as they have broadband 
connectivity. In addition to being convenient, the mobility 
that cloud computing offers has the potential to increase the 
productivity of individuals. The cloud also has the potential 
to drive innovation, not only by changing the way businesses 
operate, but also how research is conducted. I look forward to 
hearing more about how cloud computing can advance basic 
research from Dr. Reed later this morning.
    However, despite all of the promise cloud computing offers, 
there are a number of security concerns associated with moving 
information to a remote data server that is operated by a third 
party and may be located in a foreign country with less 
stringent data protection laws. In fact, according to a recent 
report, 71 percent of federal Chief Information Officers stated 
that security concerns were preventing them from adopting cloud 
solutions. However, the same report found that the Federal 
Government could save over $14 billion within the first year if 
we were to embrace cloud computing. It is essential that we 
find a way to ensure the security and privacy of the cloud so 
that the Federal Government can reap the full benefits of this 
emerging technology.
    I am pleased that the Administration is focusing its 
efforts on achieving this goal. As I understand it, this effort 
by GSA and NIST will provide federal agencies with tools to 
assess and select cloud computing services and products that 
satisfy federal security requirements. In addition, I am 
pleased that NIST has taken an active role in the development 
of cloud computing standards for the Federal Government and is 
working closely with industry on the development of standards 
to support cloud computing infrastructure, metrics, 
interoperability, and assurance as mandated in the America 
COMPETES Reauthorization Act.
    Standards are a critical component to our ability to 
realize the true potential of cloud computing, and I am pleased 
that NIST has hit the ground running with these efforts and is 
well on its way to delivering the required standards.
    I look forward to hearing from our witnesses about the 
Administration's efforts and what we here in Congress can and 
should do to ensure progress continues and that the federal 
agencies have the tools and resources they need to adopt secure 
cloud computing solutions which will save money.
    I would like to again thank the witnesses for being here 
today. I look forward to your testimony. Thank you, Chairman 
Quayle, and I yield back the balance of my time.
    [The prepared statement of Mr. Lujan follows:]

           Prepared Statement of Representative Ben R. Lujan
    Thank you, Chairman Quayle, and good morning to our witnesses. I 
want to thank you all for being with us today for this important 
hearing to examine both the benefits and risks of cloud computing.
    As you all know, and as I expect we will hear from our witnesses 
today, cloud computing has many potential benefits. By sharing IT 
capabilities in the cloud, individuals, businesses, and government 
agencies are able to leverage their resources more effectively. They 
only need to pay for what they use and can easily scale up or ramp down 
the computing power or amount of data storage they need.
    In addition to lowering capital investment, cloud computing allows 
people to access their files and applications from anywhere at any 
time, using everything from their home computer to their iPad or smart 
phone. In addition to being convenient, the mobility that cloud 
computing offers has the potential to increase the productivity of 
individuals.
    The cloud also has the potential to drive innovation not only by 
changing the way businesses operate, but also how research is 
conducted. I look forward to hearing more about how cloud computing can 
advance basic research from Dr. Reed later this morning.
    However, despite all of the promise cloud computing offers, there 
are a number of security concerns associated with moving information to 
a remote data server that is operated by a third party and may be 
located in a foreign country with less stringent data protection laws.
    In fact, according to a recent report, 71 percent of federal chief 
information officers stated that security concerns were preventing them 
from adopting cloud solutions.
    However, that same report found that the federal government could 
save over $14 billion within the first year if it were to embrace cloud 
computing.
    It's essential that we find a way to ensure the security and 
privacy of the cloud so that the federal government can reap the full 
benefits of this emerging technology. I am pleased that the 
Administration is focusing its efforts on achieving this goal. As I 
understand it, this effort by GSA and NIST will provide federal 
agencies with tools to assess and select cloud computing services and 
products that satisfy federal security requirements.
    In addition, I am pleased that NIST has taken an active role in the 
development of cloud computing standards for the federal government and 
is working closely with industry on the development of standards to 
support cloud computing infrastructure, metrics, interoperability, and 
assurance, as mandated in the America COMPETES Reauthorization Act. 
Standards are a critical component of our ability to realize the true 
potential of cloud computing and I am pleased that NIST has hit the 
ground running with these efforts and is well on its way to delivering 
the required standards.
    I look forward to hearing from our witnesses about the 
Administration's efforts and what we here in Congress can or should do 
to ensure that progress continues and that the federal agencies have 
the tools and resources they need to adopt secure cloud computing 
solutions.
    I'd like to again thank the witnesses for being here today and I 
look forward to your testimony. Thank you, Chairman Quayle. I yield 
back the balance of my time.

    Chairman Quayle. Thank you, Mr. Lujan. I would like to 
request unanimous consent that the CLOUD\2\ Commission's report 
be added to the record at this point. Without objection, so 
ordered.
    [The information appears in Appendix II]
    Chairman Quayle. If there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    At this time, I would like to introduce our witnesses and 
then we will proceed to hear from each of them in order.
    Our first witness is Mr. Michael Capellas, Chairman and CEO 
of the Virtual Computing Environment Company. Mr. Capellas also 
serves as co-chair of the TechAmerica Foundation's Commission 
on the Leadership Opportunity in U.S. Deployment of the Cloud, 
or CLOUD\2\.
    Next, we will hear from Dr. Dan Reed, Corporate Vice 
President of the Technology Policy Group at Microsoft 
Corporation.
    Our third witness is Mr. Nick Combs, Federal Chief 
Technology Officer for EMC Corporation.
    Our final witness is Dr. David McClure, the Associate 
Administrator for the Office of Citizen Services and Innovative 
Technologies at the GSA.
    Thanks again to our witnesses for being here this morning, 
and as our witnesses should know, spoken testimony is limited 
to five minutes each. After all witnesses have spoken, Members 
of the Committee will have five minutes each to ask questions.
    I now recognize our first witness, Mr. Michael Capellas, 
for five minutes. Mr.--can you turn your mic on? Thank you.

              STATEMENTS OF MR. MICHAEL CAPELLAS,

              CHAIRMAN AND CEO, VIRTUAL COMPUTING

        ENVIRONMENT COMPANY; CO-CHAIRMAN, COMMISSION ON

  THE LEADERSHIP OPPORTUNITY IN U.S. DEVELOPMENT OF THE CLOUD 
                          ``CLOUD\2\''

    Mr. Capellas. That would be helpful. Always takes a tech 
guy to learn how to turn the mic on.
    So again, good morning, Chairman Quayle and Members of the 
Subcommittee. My name is Michael Capellas, and I am Co-Chair of 
TechAmerica Foundation's Commission on the Leadership 
Opportunity in U.S. Deployment of the Cloud, and I am honored 
to be invited to testify on a subject of critical national 
importance.
    Cloud computing has far-ranging economic implications of 
utmost relevance to U.S. job creation, productivity, and 
technology leadership. As many on the Subcommittee have no 
doubt observed, cloud computing has taken on many meanings and 
there is widespread confusion in the market about what cloud 
means, how to get it, what it is good for and what possible 
drawbacks might exist. But the cloud business opportunity is 
significant, with analysts projecting cloud revenues to top $50 
billion within three years.
    Those that follow the technology industry know that cloud 
computing has been around for many years. It is only recently 
that revenue projections have sharply increased, so it is 
important to understand why many experts think cloud computing 
is poised to grow rapidly over the next decade and why all the 
cloud hype exists in the marketplace.
    The application of IT in general has been the single-most 
important driver of U.S. productivity for over two decades. My 
objective is to convey the Commission's finding around why 
cloud is so important in terms of U.S. competitiveness, 
including job creation and productivity. But first I want to 
suggest that most of the predictions about cloud's strong 
market growth are wrong. I think they are wrong because they 
understate cloud growth and they understate the impact cloud is 
going to have in reshaping the IT landscape. Cloud is like 
nothing we have seen before in prior waves, and why it is 
important to the U.S. Government.
    Information Technology has been synonymous with economic 
prosperity since the middle of the last century. IT has 
experienced numerous waves of changes since that time. Previous 
IT waves include the World Wide Web, the proliferation of 
handheld mobile and tablet Internet devices, virtualization 
technologies that together provide anytime, anywhere, any-
manner connection to data, applications, and people. Cloud 
computing represents the culmination of those waves, and as 
such, it promises to spur the most significant transformation 
we have seen so far.
    The Cloud will bring unprecedented opportunity to both 
users and those engaged in the business of IT infrastructure, 
solutions, and services. But what is at stake is significantly 
larger than the tens of billions of dollars of revenue that 
analysts are describing. I believe that cloud computing has the 
potential to reshape the landscape and shift wealth between 
nations. Trillions of dollars of economic wealth will be 
balanced upon competiveness in our 24-by-7 world. Cloud 
computing as a foundational element of IT can make companies, 
agencies, and organizations more nimble and competitive by 
boosting productivity and increasing the speed of business. 
Moving to the cloud faster will thus become a key consideration 
as organizations seek to become more competitive.
    As requested, let me take a minute to address the essence 
of cloud computing. Cloud computing is defined as a model for 
enabling convenient, on-demand network access to a shared pool 
of configurable computing resource--for example, networks, 
servers, storage, applications, and services--that can be 
rapidly provisioned and released with minimal management 
efforts or service provider interaction.
    Central to cloud computing are the concepts of on-demand, 
self-service to an elastic pool of flexible resources, and 
measured service. In contrast to a traditional IT environment 
where different teams of specialists independently manage 
servers, networks, or storage, in cloud computing these 
components are preassembled into highly standardized and 
automated converged infrastructure, and the users do not have 
to know or care about where any of the components of technology 
are.
    As an analogy, computers used to connect together over 
proprietary local networks, and it was difficult and expensive 
for different networks to talk to each other. Information was 
generally compartmentalized and generally only available to a 
few users. IP, or the Internet Protocol, was created as a 
network that could span great distances, and after a few years 
of solid but not remarkable growth, the entire market rapidly 
shifted and adopted IP because it evolved to solve both the 
problem of distance and the problem of communicating with other 
networks. IP thus became the de facto standard and users no 
longer needed to care or know about where the underlying 
network was.
    As a participant in the IP technology wave, I will note 
that IP technology development was largely led by U.S. 
companies and has contributed to U.S. technological leadership, 
job growth, and productivity. Standardizing on IP simplified IT 
operations, reduced costs, and spurred advances.
    Cloud computing also promises to add other forms. Most 
social networks today run on clouds with thousands of e-
commerce sites, but the misconceptions with the cloud start 
back with agencies, and I believe that continued leadership of 
the United States will depend on cloud computing.
    The Commission, comprised of 71 commissioners from leading 
U.S. companies and academia, delivered detailed recommendations 
to federal officials on how to best use the cloud and how the 
U.S. Government can capitalize on the advantages of cloud while 
spurring growth and enhancing productivity.
    The Commission identified a set of barriers as well. I 
encourage you to look at the entire set, which is 14 
recommendations, which have been detailed. Each of the 
recommendations shows how the Federal Government can look and 
can help ranging from policy to the different ways that we are 
going to deploy economic modeling. And with that, I thank you.
    [The prepared statement of Mr. Capellas follows:]

   Prepared Statement of Mr. Michael D. Capellas, Chairman and CEO, 
                 Virtual Computing Environment Company
    Good morning, Chairman Quayle, and Members of the Subcommittee. My 
name is Michael Capellas and I am Co-Chair of the TechAmerica 
Foundation's Commission on the Leadership Opportunity in U.S. 
Deployment of the Cloud. I am honored to be invited to testify on a 
subject of critical national importance. Cloud computing has far 
ranging economic implications of utmost relevance to U.S. jobs 
creation, productivity and technology leadership.
    As many on the Subcommittee have no doubt observed, cloud computing 
has taken on many meanings and there is widespread confusion in the 
market about what cloud means, how to get it, what it's good for and 
what potential drawbacks to cloud might exist. But the cloud business 
opportunity is significant, with analysts projecting cloud revenues to 
top $50B within three years.
    Those that follow the technology industry know that cloud computing 
has been around for many years. It is only recently that revenue 
projections have sharply increased, so it is important to understand 
why many experts think cloud computing is poised to grow rapidly over 
the next decade and why all the cloud hype exists in the marketplace.
    The application of IT has been the single most important driver of 
U.S. productivity over the past two decades. My objective today is to 
convey the Commission's findings around why the cloud is so important 
in terms of U.S. competitiveness, including jobs creation and 
productivity.
    But first I want to suggest that most of these predictions about 
strong cloud market growth are wrong. I think they are wrong because 
they understate cloud growth and they understate the impact cloud will 
have in reshaping the IT landscape. Cloud will be like nothing we've 
seen before. Why is this important to the U.S. government? Information 
Technology has been synonymous with economic prosperity since the 
middle of the last century. IT has experienced numerous waves of 
changes since that time. Previous IT waves include the world wide web, 
the proliferation of handheld mobile and tablet Internet devices, and 
virtualization technologies that together can provide anytime, 
anywhere, any-manner connection to data, applications and people. Cloud 
computing represents the culmination of many waves, and as such it 
promises to spur the most significant transformation we've seen to 
date.
    Cloud computing will bring unprecedented opportunity to both users 
and those engaged in the business of IT infrastructure, solutions and 
services. But what is at stake is significantly larger than the tens of 
billions of dollars that analysts are describing. I believe cloud 
computing has the potential to both reshape the IT landscape and shift 
wealth between nations. Trillions of dollars of global economic wealth 
will be based upon competiveness in our 24x7 world. Cloud computing as 
a foundational element to IT can make companies, agencies and 
organizations more nimble and competitive by boosting productivity and 
increasing the speed of business. Moving to cloud faster will thus 
become a key consideration as organizations seek to become more 
competitive.
    As requested, let me take a moment to address the essence of cloud 
computing. Cloud computing is defined as a model for enabling 
convenient, on-demand network access to a shared pool of configurable 
computing resources (for example, networks, servers, storage, 
applications, and services) that can be rapidly provisioned and 
released with minimal management effort or service provider 
interaction. Central to cloud computing are concepts of on-demand, 
self-service to an elastic pool of flexibly provisioned resources with 
measured service. In contrast to a traditional IT environment where 
different teams of specialists independently manage servers, networking 
and storage, in cloud computing these components are pre-assembled in a 
highly standardized and automated converged infrastructure, and the 
users do not have to know or care about how the components are put 
together. As an analogy, computers used to connect together over 
proprietary local networks, and it was difficult and expensive for 
different networks to talk to each other. Information was 
compartmentalized and generally only available to a few users. IP--the 
Internet Protocol--was created as a network that could span great 
distances, and after a few years of solid but not remarkable growth, 
the entire market rapidly shifted to IP because it had evolved to solve 
both the problem of distance and the problem of communicating with 
other networks. IP thus became the de facto standard and users no 
longer needed to know or care about the underlying network. As a 
participant in the IP technology wave, I'll note that IP technology 
development was largely led by U.S. companies and has contributed to 
U.S. technology leadership, job growth and productivity. Standardizing 
on IP simplified IT operations, reduced cost, and spurred advances like 
unified communications and high definition video over IP that we enjoy 
in our homes today.
    Cloud computing also promises to simplify IT operations, reduce 
costs, and increase the speed and effectiveness with which 
organizations can do business and accomplish missions. Most Americans 
already use cloud computing in one form or another. Most social 
networking sites and thousands of e-commerce sites are ``running in the 
cloud.''
    But misconceptions and concerns with cloud may impact success for 
companies and agencies, and I believe continued U.S. leadership in IT 
is dependent upon U.S. leadership in cloud computing. The CLOUD\2\ 
commission, comprised of 71 commissioners from leading U.S. companies 
and academia, delivered detailed recommendations to federal officials 
on how to best allow the U.S. government to capitalize on the 
advantages of cloud, while spurring U.S. job growth and enhancing 
overall U.S. competitiveness in the world market. I was privileged to 
co-chair the Commission, working with industry leading experts from 
many U.S. companies, meeting with key customers and government 
agencies, and leading meetings between the Commission and numerous U.S. 
government officials. The Commission included some of the technology 
industry's brightest minds, who put our nation's best interests above 
individual company interests for the duration of our work effort, 
displaying focused and intense collaboration over a multi-month period 
resulting in a highly successful and influential outcome.
    The Commission identified a set of common barriers spanning 
institutional inertial, restrictive policies, and technology concerns 
such as security and privacy that are currently inhibiting cloud 
awareness and adoption. Through comprehensive analysis and 
collaboration, a set of fourteen actionable recommendations along with 
a prescriptive Cloud Buyer's Guide was delivered to government IT 
officials and the commercial market as a whole. The Commission 
recognized the need to enable many paths to cloud computing, and 
determined that interim steps could be instrumental in accelerating 
many customers' journey to cloud.
    The first step in accelerating the adoption of the cloud and 
driving U.S. leadership in cloud innovation is earning the trust of 
current and potential cloud users. Trust in the cloud is a result of a 
combination of factors that enable individuals and organizations 
consuming cloud services to be confident that the services are meeting 
their computing needs. These needs include security, privacy, 
performance and availability; the factors that contribute include 
transparency of practices, accountability, resiliency and redundancy, 
access and connectivity, supply chain provenance, life cycle integrity, 
and governance.
    In response to industry concerns about cloud trust, the Commission 
created recommendations to develop and provide a standard approach to 
assessing and authorizing cloud computing services and products for use 
by Federal agencies. Specific recommendations are associated with 
robust identity management, federal data breach laws, the promotion of 
privacy frameworks, cloud service level transparency, transnational 
data flows, and re-examining mechanisms for lawful access by law 
enforcement or government to data stored in the cloud via reform of the 
Electronic Communications Privacy Act. The Commission encouraged the 
government to lead by example by increasing adoption of cloud computing 
and pursuing interim paths to cloud such as converged infrastructure 
deployments and virtualized data centers. Finally, the Commission made 
recommendations on policies mandating public disclosure of information 
about relevant operational aspects of public cloud services, including 
portability, interoperability, security, certifications, performance 
and reliability.
    Members of Congress are encouraged to absorb the entire set of 
recommendations and act on them where possible. Excerpts from the 
Commission recommendations follow below, and the benefits of acting 
swiftly are clear. Cloud computing will enable companies (and 
governments) to move faster and be more responsive and flexible. 
Companies will be able to try several prototypes at once, test their 
limits, and then build and deploy new, better prototypes-all within a 
few weeks. This may be the most important benefit of the cloud-it 
enables companies of all sizes and in all sectors, as well as 
governments, non-profits, and individuals, to more quickly build new 
applications and services by reducing the cost and complexity of 
deploying and managing IT resources. Most companies and organizations 
spend the vast majority of their IT budget just maintaining their 
current infrastructures and the applications that run on them. The 
cloud will enable them to devote more resources and talent to creating 
new products and services and improving productivity. This 
democratization of innovation is a huge opportunity for people, 
organizations, and countries around the world. To maintain its 
competitive position, the United States must focus on quickly and 
effectively harnessing the full power of cloud computing, leading in 
both the deployment of cloud and the development of new cloud services. 
This will help American companies generate high-paying jobs and compete 
in the global marketplace.
    Recommendation 1 (Trust in the Cloud): In recent months, senior 
U.S. officials have described threats such as cyber crime and state-
sponsored industrial espionage as outpacing many enterprise defenses. 
In this evolving cyber threat environment, the commission believes that 
cloud security services and solutions, if done correctly, may provide 
improved security relative to non-cloud environments.
    In order to implement applicable best practices and standards 
around security and information assurance, the Commission supports the 
efforts underway on programs such as the Federal Risk and Authorization 
Management Program (FedRAMP) and NIST Security Content Automation 
Protocol (SCAP). FedRAMP is a voluntary, General Services 
Administration (GSA) led initiative to develop and provide a standard 
approach to assessing and authorizing cloud computing services and 
products for use by Federal agencies. The Commission believes that a 
well-defined FedRAMP framework will help accelerate the adoption of 
cloud in the Federal government. The NIST SCAP is a standard that 
enables the automation of reporting and verifying IT security control 
parameters. SCAP provides a ready method to capture, test and 
continuously monitor the controls and integrity settings required to 
achieve the respective standard and/or compliance requirements. 
Security metrics efforts should build upon industry and academia 
initiatives already chartered to address standard cloud performance 
measurement frameworks. As the cloud is deployed by federal agencies 
and businesses in multiple sectors, cloud-related security issues will 
become an important element of the overall security discussion for 
those communities. The Commission therefore recommends that cloud 
expertise be integrated into existing information-sharing structures, 
such as the Information Sharing and Analysis Centers (ISACs) and the 
Sector Coordinating Councils.
    Recommendation 2 (Identity Management): Industry and government 
should accelerate the development of a private sector-led identity 
management ecosystem as envisioned by the National Strategy for Trusted 
Identities in Cyberspace (NSTIC) to facilitate the adoption of strong 
authentication technologies and enable users to gain secure access to 
cloud services and websites. Mechanisms to provide identity, 
authentication, and attribution in cyberspace are essential to 
accelerating adoption of cloud computing services and improving trust 
in the cloud. (For example, identity management facilitates access 
verification, billing, law enforcement access, and other features and 
capabilities.) Two characteristics of a robust identity management 
ecosystem are (1) enabling higher level transactions to occur 
electronically and (2) enabling credentials to be utilized across 
multiple services and websites. In addition to supporting the 
development of a private sector-led identity management ecosystem, the 
commission also suggests specific steps that the federal government 
could take as a user of cloud services that would contribute to 
advancing robust identity management: Deploy, as appropriate, multi-
factor authentication for federal cloud applications as used by federal 
personnel and government contractors doing government contract work. 
And accelerate the adoption of strong authentication, including multi-
factor authentication and one time passwords, to enable mobile access 
to secure federal cloud services and websites.
    Recommendation 3: The Commission recommends a national data breach 
law to streamline notifications and make it simple for customers to 
understand their rights with regard to notification. Such a law should 
include preemption of state laws to provide for harmonization. In 
addition, the law should take into account the various types of 
entities that are involved in processing the covered data cloud service 
providers, industry, government, nonprofit organizations, academic 
organizations, etc., and specifically provide that notice should be 
given by the entity that has a direct relationship with the parties 
whose information was subject to the breach. Finally, the law should 
have notification requirements based on risk of harm. Note that the 
motivation for such legislation is not limited to cloud computing, but 
adoption of cloud computing would benefit from this action. 
Specifically, by clarifying responsibilities and commitments around 
notification, the law will enable cloud providers to prepare to take 
expected steps in case of a breach and enable customers to trust the 
providers to do so. As a complement to the above recommendations, the 
U.S. government should update and strengthen criminal laws against 
those who attack our cyber infrastructure, including cloud computing 
services. In addition to clarifying cyber criminal offenses and 
defining penalties, the Federal government must commit adequate 
resources and personnel to investigating and tracking down cyber 
criminals. As much of cyber crime is transnational, the federal 
government should promote further international cooperation around 
cross-border prosecutions and identifying countries affording safe 
havens to such criminals.
    Recommendation 4 (Research): Government, industry, and academia 
should develop and execute a joint cloud computing research agenda. The 
Commission recommends that government, industry, and academia take 
responsibility for developing and carrying out a research agenda that 
will promote U.S. leadership in the cloud by enabling innovation that 
benefits customers and service providers. Relevant cloud-oriented 
research areas include, but are not limited to, usability, privacy, 
availability, integrity, confidentiality, security, cryptography, 
identity management, energy efficiency, resource allocation, 
portability, and dependability. Government research agencies, like the 
National Science Foundation (NSF) and the Defense Advanced Research 
Projects Agency (DARPA), should fund universities and other 
organizations to conduct long range research activities, including 
those that build educational and research capacity and high risk, high-
reward projects. Cooperative cloud test beds will also be a critical 
element in advancing the overall evolution of cloud technologies.
    Recommendation 5 (Privacy): The U.S. government and industry should 
promote a comprehensive, technology-neutral privacy framework, 
consistent with commonly accepted privacy and data protection 
principles-based frameworks such as the OECD principles and/or APEC 
privacy frameworks. The Commission recommends that the U.S. build upon 
the work of existing, accepted privacy and data protection principles-
based frameworks such as the Organization for economic Cooperation and 
Development (OECD) and/or Asia-Pacific Economic Cooperation (APEC) to 
develop and promote a comprehensive, technology-neutral privacy 
framework. The existing U.S. laws are sector specific and state 
specific, and this approach is different than those in other regions 
(e.g., Europe). In some quarters, there is a concern that this may 
impede the transnational flow of data with other countries, especially 
those in Europe. These actions would help provide the certainty and 
flexibility required for continued cloud innovation and would be a step 
toward fostering a global market for cloud services. Industry should 
embrace such frameworks and utilize them to the fullest extent 
practicable.
    Recommendation 6 (Government/Law Enforcement Access to Data): The 
U.S. government should demonstrate leadership in identifying and 
implementing mechanisms for lawful access by law enforcement or 
government to data stored in the cloud. The Commission recommends that 
the U.S. modernize legislation governing law enforcement access to 
digital information in light of advances in IT in general and the cloud 
in particular. Reform of the Electronic Communications Privacy Act 
(ECPA) is critical to clarifying the legal conditions under which U.S. 
cloud providers and their customers will operate, as technology changes 
have overtaken many aspects of ECPA as originally written. Various 
groups such as the Digital Due Process Coalition have proposed making 
government access to data stored in the cloud consistent with 
government access to data stored in in-house IT systems. The U.S. 
Department of Commerce should conduct a study to assess the impact of 
the USA PATRIOT Act and similar national security laws in other 
countries on a company's ability to deploy cloud in a global 
marketplace. This action may provide insights into how best to address 
the uncertainty and confusion caused by national security statutes 
(e.g., PATRIOT Act) and similar laws of other nations) that are 
perceived as impediments to a global market place for cloud services.
    Recommendation 7: Critical to improving trust in the cloud and 
accelerating adoption is the need for best practices in collecting 
forensic data and information in ways that do not result in 
significant, adverse impacts on individuals and/or organizations using 
the cloud-based information. To address this, the Commission recommends 
that the Federal CIO work with applicable agencies such as the U.S. 
Department of Justice and other relevant organizations to establish 
best practices specifically addressing acceptable methods for 
collecting forensic evidence from organizations using cloud-based 
information systems. In addition, cloud providers should assist their 
customers (e.g., individuals, commercial entities, government) with 
technologies to facilitate ediscovery and information retrieval 
requirements, whether in support of regulatory compliance or litigation 
activities.
    Recommendation 8 (Lead by Example): The U.S. government should 
demonstrate its willingness to trust cloud computing environments in 
other countries for appropriate government workloads. This 
recommendation highlights the role of the U.S. government both as a 
customer of cloud services and as a leader in enabling trustworthy use 
of the cloud. Government agencies, in evaluating potential models for 
using the cloud, should not assume or default to the notion that no 
government workload and/or task is suitable for cloud computing 
environments in other countries. Instead, they should carefully 
consider the types of data and tasks within their information and 
communications technology portfolios to match suitable workloads to the 
cloud computing models that achieve the required level of 
confidentiality, integrity, and availability at the appropriate levels 
of efficiency, cost, and redundancy.
    Recommendation 9 (Transparency): Industry should publicly disclose 
information about relevant operational aspects of their cloud services, 
including portability, interoperability, security, certifications, 
performance and reliability. Industry and government should support 
development of metrics designed to meet the needs of different user 
groups. These metrics should be developed in an open and transparent 
environment, taking into account the global nature of cloud use. The 
Commission recognizes the need for information and tools that provide 
users with meaningful ways to evaluate the characteristics and 
performance of various cloud implementations, whether they are 
contemplating deployment or evaluating performance of their current 
services. Development of metrics around key cloud attributes should be 
driven by user needs and provider capabilities. The government and 
commercial sector should collaborate on lessons learned, and each 
should be careful to avoid dominating the development of these metrics. 
Different government and business sectors will likely demand different 
measures and tools.
    Recommendation 10 (Data Portability): Cloud providers should enable 
portability of user data through documents, tools, and support for 
agreed-upon industry standards and best practices. One benefit of the 
cloud is its ability to store and process large quantities of data. For 
customers making the transition to cloud, this often raises questions 
about how they access or move that data, especially in cases where they 
are switching between cloud providers. Data portability can be achieved 
in a variety of ways, and cloud providers should be transparent about 
their conformance with industry standards and best practices as well as 
the documents, tools, and relevant third-party solutions they make 
available to their customers. Customers should recognize that early 
consideration of data portability in selecting and implementing cloud 
services can reduce the risk of vendor lock-in. A collection of data 
portability standards, formats, and practices is vital to encouraging 
widespread cloud adoption. Government and industry should collaborate 
on facilitating the rapid development and dissemination of these 
standards and other relevant tools. The collaboration between NIST and 
the private sector in preparing the NIST standards roadmap under the 
Federal Cloud Computing Strategy is an excellent example of these types 
of efforts.
    Recommendation 11 (Federal Acquisition and Budgeting): Agencies 
should demonstrate flexibility in adapting procurement models to 
acquire cloud services and solutions. Congress and OMB should 
demonstrate flexibility in changing budget models to help agencies 
acquire cloud services and solutions. In interviews with senior 
government officials, the Commission found that the current Federal 
Acquisition Regulation (FAR) does not need alteration for agencies to 
acquire cloud services. The FAR is already flexible enough to allow 
agencies to acquire IT as a service. However, agencies should 
demonstrate flexibility in adapting current procurement models and 
existing contracts to take advantage of new cloud offerings. One of the 
biggest challenges agencies may face in budgeting is predicting the 
costs of cloud computing over the course of a fiscal year. Cloud 
computing is designed to scale quickly to a customer's needs, providing 
maximum flexibility to the user. If the cloud service is based on a 
predictable subscription model (such as a standard monthly fee per 
user), these budget projections can be easily accommodated. If the 
cloud service is based on pay-as-you-go usage, however, it can be 
difficult to predict costs unless the user can precisely forecast 
future computing needs. To address this challenge, the Commission 
recommends that the current efforts to update and streamline the OMB 
300 exhibit form and associated budget scoring include tools that 
facilitate and encourage the new business models associated with cloud. 
OMB and Congress should communicate to agencies that it recognizes 
budgeting for cloud is not like budgeting for traditional IT services 
and should assure agencies it will provide support and flexibility 
during and after the transition to the cloud. To help agencies acquire 
cloud services, the Commission also recommends Congress and OMB 
demonstrate flexibility in changing budget models. Government must find 
ways to provide more flexibility for agencies to reduce and transition 
funds in the capital expenditure accounts to the operations and 
maintenance expenditure accounts as part of implementing innovative 
cloud solutions and achieving savings. In making decisions about 
budgeting and acquisition, federal agencies, through the CIO Council, 
would benefit from sharing best practices, tools for objective analysis 
of cloud performance, and ways to predict and document different 
contributors to the budgetary impact of switching to the cloud.
    Recommendation 12 (Incentives): Government should establish 
policies and processes for providing fiscal incentives, rewards and 
support for agencies as they take steps towards implementing cloud 
deployments. Adopting a new technology can be difficult, and the 
transition of agencies to the cloud will require investment of time, 
resources, and political will by the federal government. In recognition 
of this, the Commission recommends that OMB establish incentives and 
provide support for agencies beginning cloud adoption.
    One possible incentive is to allow agencies to retain and redirect 
a portion of the overall budget savings realized from cloud adoption. 
Another approach is to provide seed money to agencies that help with 
the initial investments required in moving to the cloud.
    Recommendation 13 (Improve Infrastructure): Government and industry 
should embrace the modernization of broadband infrastructure and the 
current move to IPv6 to improve the bandwidth and reliable connectivity 
necessary for the growth of cloud services. The Commission recommends 
that the federal government and industry continue to expand deployment 
of high bandwidth networking, enhance network resilience, and advance 
IPv6 adoption to ensure ample broadband connections. Efforts such as 
those advocated in the Federal Communications Commission's National 
Broadband Plan, including making additional spectrum available and 
expanding opportunities for opportunistic and unlicensed spectrum use, 
are necessary to allow cloud computing to function effectively and for 
businesses and citizens to realize the benefits of innovative new cloud 
technologies. With rapidly rising demands for connectivity, the last 
batch of IPv4 addresses, assigned earlier this year, is unlikely to 
meet demand beyond the end of 2011. Since cloud computing depends on 
the connection of many individuals, devices, and locations, a quick 
transition to IPv6 is vital to ensuring the successful adoption and 
operation of cloud computing in the future.
    Recommendation 14 (Education/Training): Government, industry, and 
academia should develop and disseminate resources for major stakeholder 
communities to be educated on the technical, business, and policy 
issues around acquisition, deployment and operation of cloud services. 
The Commission commends GSA's outreach efforts to federal agencies to 
provide materials, expertise, and support around investigating, 
procuring, and deploying cloud solutions. GSA could build on this work 
by creating a cloud educational portal to help agency buyers, 
architects, administrators, and end users in understanding all aspects 
of cloud computing. Government, using existing programs in technology 
education and workforce training,4 can facilitate and encourage 
academic institutions and educational organizations to develop and 
offer courses relevant to cloud, in partnership with industry.
    In a time when the government is seeking to do more with less and 
the commercial sector is being called upon to create jobs and grow the 
economy, now is the time to act on the cloud. Cloud computing has 
ushered in vast improvements in the cost, agility and efficiency of 
computing. These benefits alone drive a strong business case; however, 
the more compelling return is the opportunity to leap forward; to 
discover new markets and improve how we interact with, serve, and 
support U.S. citizens, users and other nations. The cloud holds the 
potential to unlock widespread entrepreneurism of all shapes and sizes, 
and expand the scope to do entirely new things--innovations such as 
social networking, which we could not fully imagine just a decade ago, 
would not exist without IT's continued evolution to the cloud.
    It is the hope of the Commission that the federal government, 
industry and academia will implement these recommendations and be 
leaders in shaping how the future unfolds through the adoption of the 
cloud across the United States and around the world. Furthermore, these 
recommendations should demonstrate that cloud computing is not a new 
technology that needs further validation or analysis before it can be 
safely adopted; it is a natural evolution in computing. Those who 
recognize this and take early advantage of the benefits it offers will, 
in the coming decades, be the leaders not in only IT but in driving the 
cloud's evolution, and therefore, in driving business and mission 
results.

    Chairman Quayle. Thank you, Mr. Capellas.
    I now recognize Dr. Dan Reed to present his testimony.

      STATEMENT OF DR. DAN REED CORPORATE VICE PRESIDENT,

        TECHNOLOGY POLICY GROUP, MICROSOFT CORPORATION;

                  VICE CHAIRMAN, ``CLOUD\2\''

    Dr. Reed. Thank you, Mr. Chairman, Ranking Member Lujan, 
and Members of the Committee. My name is Dan Reed and I am the 
Corporate Vice President of Microsoft's Technology Policy 
Group. And thank you for the opportunity to testify regarding 
the cloud today.
    Today's smartphone was yesterday's supercomputer and 
yesterday's national archive is today's child's digital music 
collection. By combining the cloud with rich devices and 
sensors, the possibilities ahead are even more exciting--
anticipatory personalized computing, remote healthcare 
monitoring and early response, smart grids and more energy 
efficient homes, intelligent transportation systems and reduced 
commuting times, and a new era of scientific discovery and 
innovation.
    As a technologist for almost 30 years working in academia 
and industry, my testimony concerns how the cloud can help 
realize this future--accelerating scientific discovery for 
research, creating operational efficiencies, and enabling 
innovation by businesses and governments. I will touch on four 
areas in my remarks emphasizing how the Federal Government can 
facilitate these benefits.
    I will begin with the cloud and science. Two major shifts 
are underway. First, researches are deluged by observational 
scientific data of unprecedented richness and scale. Second, 
and related, many of our most pressing technical and societal 
questions increasingly lie at the intersection of traditional 
disciplines. Both shifts challenge our historical approaches to 
investment and discovery via computing. The cloud and 
associated tools can let scientists be scientists rather than 
being distracted by IT, as they often are now.
    I believe the Federal Government can accelerate this 
transition by encouraging the purchase of cloud services as a 
complement to and rather than just supporting the acquisition 
of local IT infrastructure, and equally importantly, by 
supporting new tools that facilitate distributed collaboration 
and simplify access to multidisciplinary scientific and 
engineering data. Microsoft is acting on this belief working in 
partnership with the National Science Foundation.
    My second point concerns the cloud's impact on business and 
government. Cloud computing, as it was just noted, allows 
elastic scaling to meet varying demand both in capability and 
in management. Via the cloud, companies can be nimble and they 
can make forward bets quickly and without large capital or IT 
costs. This enables smaller companies to compete globally and 
it enables larger companies to explore new products and markets 
rapidly. Government, too, can benefit from cloud efficiencies 
to lower costs and deliver services in new ways. Clouds can 
also allow data from local, state, and federal agencies, as 
well as the private sector, to be combined and used in ways 
previously difficult if not impossible.
    Thus, the Federal Government should move expeditiously to 
adopt cloud capabilities beginning with those services and data 
that directly match industry experiences and best practices, 
and it should revise policies and regulations accordingly to 
accelerate cloud deployment.
    Third, let us consider the infrastructure needed for 
clouds. Cloud services depend on broadband communication. It is 
the oxygen via which they breathe. In turn, digital access to 
information and services is an enabler of economic 
competitiveness--of education, of government efficiency, and of 
service delivery. We must continue to design and deploy new 
backbone networks that support higher data rates, develop new 
protocols for the next generation of wireless networks, and 
define the standards that will shape the future of the globe-
encircling cloud with access for all of us.
    Fourth and finally, let me come back to research and 
education. As this Committee well appreciates and it has helped 
enable, today's cloud technology is derived from basic 
computing research conducted over the past four decades. To 
ensure that the United States remains at the forefront in cloud 
computing--and make no mistake, it is--ongoing investment and 
basic research remains crucial. There are deep and open abiding 
questions in the endless frontier of research in areas as 
diverse as privacy and security, chip design, energy 
efficiency, data management, networks and reliability, user 
interfaces, and accessibility. Equally importantly, this 
investment must be complemented by improvements in computing 
education at all levels.
    In summary, the cloud is a foundation of the 21st Century 
digital economy. It can provide access to the world's knowledge 
base to individuals and empower entrepreneurs and companies 
large and small to sell their products globally, enable 
scientists and engineers to discover and innovate, and deliver 
government services quickly and efficiently.
    Thank you.
    [The prepared statement of Mr. Reed follows:]

     Prepared Statement of Dr. Dan Reed, Corporate Vice President, 
    Technology Policy Group, Microsoft Corporation; Vice Chairman, 
                              ``CLOUD\2\''
    Chairman, Ranking Member, and Members of the Subcommittee, my name 
is Dan Reed, and I am the Corporate Vice President of Microsoft's 
Technology Policy Group. Thank you for the opportunity to share 
perspectives on the opportunities and challenges surrounding cloud 
computing. I appreciate the time and attention that the Committee is 
spending on this topic, and I commend you for advancing the dialogue on 
information technology and cloud computing to drive innovation.
    My testimony begins by describing the advent of the cloud and its 
importance, as a major technology inflection point with far-reaching 
effects and significant economic and competitive benefits for the U.S. 
It summarizes some of the key technologies behind clouds, notably 
massive data centers and infrastructure, wired and wireless networking, 
and the never-before-seen scale and access to information facilitated 
by these technologies. It then outlines the major opportunities clouds 
can enable to (1) accelerate scientific discovery for research; (2) 
create efficiencies and innovation for businesses and governments; and 
(3) enrich and empower the experiences of individual citizens. Finally, 
it concludes by providing a set of recommendations and next steps for 
the Federal government and others to allow the U.S. to benefit fully 
from the potential of clouds and to maintain its global leadership.

I. The Advent of the Cloud and its Importance

    There has been extensive coverage of clouds in the popular media, 
and, as with all new technologies, considerable excitement about the 
benefits, as well as potential confusion. As a technologist and 
computing researcher for nearly 30 years, working in both academia and 
industry, I would like to separate the technical realities from the 
publicity.
    Reviewing the history of modern digital computing reveals a 
prevailing theme--the fundamental questions do not change, but the 
technological answers change repeatedly, for the costs, capacities and 
speeds of the component technologies shift by many orders of magnitude. 
Today's smartphone was yesterday's supercomputer, and yesterday's 
national archive is now a child's digital music collection.
    Since the late 1940s, we have experienced a series of computing 
revolutions, from the mainframe to the minicomputer, from the 
minicomputer to the workstation and then the PC and a variety of mobile 
and embedded devices. Each of these technological revolutions further 
democratized access to computing and extended its benefits. Today, I 
believe we are in the midst of another such revolution, enabled by 
inexpensive client devices and powerful cloud computing services.
    Cloud services are not a sudden, new development. Each time we 
share digital photos, shop online, use an email service, download and 
use applications, or query a search engine, we are using the cloud. 
Every day, the combination of wired and wireless broadband networks, 
PCs and smartphones, and online services hosted in remote data centers 
connect individuals, deliver valuable data and insights, and drive 
business efficiency and innovation.
    Although the cloud has already reshaped our lives, a converging set 
of technology trends in infrastructure, devices and communications will 
drive a new generation of experiences that will benefit society in ways 
we cannot yet imagine.
    First, there is the increasingly expansive and efficient 
infrastructure that supports clouds. Today's cloud data centers are the 
largest computing capabilities ever built, a consolidation of computing 
at a truly massive scale--ten or more times the size of a football 
field for a single cloud data center. To put that fact in perspective, 
one cloud data center today contains more computers than the entire 
Internet did just a small number of years ago, and it contains as much 
digital data as would equal a substantial fraction of the text holdings 
of the Library of Congress.
    Each of the major cloud operators, Microsoft and its competitors, 
is building a worldwide network of those data centers to support a new 
generation of cloud services. In doing so, they are changing the way 
the computing industry designs and builds systems, and they are drawing 
on the best practices and insights of operating infrastructure at large 
scale to make those clouds reliable 24/7, to make them secure, and to 
make them energy efficient.
    The second trend is the explosive growth and availability of 
powerful consumer devices. While many think that the power of the cloud 
is predominantly about the massive computing and storage capabilities 
in data centers, the truly transformative effect comes from the 
intersection and interaction of the cloud with increasingly powerful 
devices.
    With powerful sensors, wireless communications, and new natural 
user interfaces, coupled with the power of the cloud, new kinds of 
experiences emerge--for governments, for businesses and for consumers. 
Remote health care monitoring and early response, smart grids and more 
energy efficient homes, intelligent transportation systems and reduced 
commuting times, and a host of other possibilities are now realizable.
    Finally, our continued investments in more powerful networking are 
coming to fruition. Cloud services rest on the foundational investment 
the U.S. has made in broadband networking, both wired and wireless, 
because communication networks are the oxygen that lets cloud services 
breathe. Reliable, high bandwidth, inexpensive and ubiquitous 
communications connect us in a true global village, albeit one on which 
demands and expectations continue to rise.

II. The Opportunities Presented by Clouds

    Cloud services and data management bring several exciting 
opportunities for greater efficiency, innovation and discovery in 
domains as diverse as scientific research, business and U.S. 
competitiveness, and citizen empowerment.
    Accelerating Scientific Discovery for Research. Throughout the 
history of science, data has been scarce and precious. Indeed, the 
modern scientific method is defined by a careful cycle of hypothesis 
and experiment, which gathers experimental data to test the hypothesis. 
Today, the same technological economics that have given us inexpensive 
computing, digital cameras and ubiquitous data-generating sensors, 
allow scientists to capture data at rates and volumes heretofore 
unimaginable.
    In almost all domains, scientists and engineers are now drowning in 
a sea of data. In a few short years, they have gone from scarcity to an 
incredible richness, necessitating a significant change in how they 
manage and extract insight from all this data. In astronomy, the Sloan 
Digital Sky Survey in January 2011 released ``the largest digital color 
image of the sky ever made. . . . This terapixel image is so big and 
detailed that one would need 500,000 high-definition TVs to view it at 
its full resolution.'' \1\ In neuroscience, the researchers working on 
mapping the connections among the neurons in the brain are finding that 
the images necessary to make that map for a cube of mouse brain a 
millimeter on a side require roughly one petabyte of storage; this 
implies that similar maps of the human brain would require millions of 
petabytes. \2\
---------------------------------------------------------------------------
    \1\ See Sloan Digital Sky Survey Press Release of January 11, 2011 
at http://www.sdss3.org/press/20110111.largestimage.php.
    \2\ See New York Times article of Dec. 27, 2010 on the Human 
Connectome Project at http://www.nytimes.com/2010/12/28/science/
28brain.html.
---------------------------------------------------------------------------
    In a parallel shift, many of our scientific, engineering and 
societal questions increasingly lie at the intersections of traditional 
disciplines. Consider, for example, the recent oil spill in the Gulf of 
Mexico. Understanding the complexities of oil distribution in water is 
a problem related to computational fluid dynamics, but understanding 
the impact of that oil on the marine ecosystem is a biological problem. 
In both cases, observational data are essential. To fully understand 
the issue, researchers from multiple disciplines--from different 
cultures, using different research tools-must unite to build models and 
analyze data from diverse sources.
    Increasing data volumes and the complexity of collaboration on 
interdisciplinary problems are challenging our historical approaches to 
discovery and innovation via computing. Researchers and research 
institutions are ill-prepared for the large-scale computing 
infrastructure management challenges posed by large data sets and 
complex models. The cloud and associated applications and tools offer a 
possible solution to this challenge by letting scientists be 
scientists.

Computing Infrastructure.

    Today researchers, graduate students, and research support staff 
often spend inordinate amounts of time maintaining the computing 
systems needed to conduct research rather than devoting their time and 
talents to the research itself. The cost to maintain and refresh this 
computing infrastructure is becoming a larger and larger burden, and 
the economics are unsustainable, particularly at a time when our 
research universities are under financial stress. As a result, much of 
our research funding has focused (because of the power of computing for 
scientific discovery) on equipment replacement and repeated 
infrastructure deployments on research campuses and in laboratories. 
Yet at even the best funded research organizations, the majority of 
researchers do not have access to the computing resources they need.
    Cloud computing can provide software applications, computing and 
data analytics, with remote access via familiar tools on PCs and 
smartphones. Because the cloud is professionally managed and regularly 
upgraded, delivering computational resources on demand, one can ``pay 
as you go,'' using large-scale computational capacity and data 
analytics only when needed. The cost to use 10,000 processors for an 
hour is the same as using ten processors for 1,000 hours, but will 
deliver results much faster to the researcher. Organizations can buy 
just-in-time services to process and exploit data, rather spending 
scare resources on infrastructure.

Enabling Computing Tools and Applications for Research.

    Much of our historical investment in high-performance computing 
(HPC) has brought the benefits of advanced computing to only a subset 
of the research community. Although powerful, and offering breakthrough 
capabilities for scientific and engineering discovery, these systems 
are often difficult to use, with steep learning curves and software 
tools that are unfamiliar to many. The key lesson of the consumer 
computing world is the importance of the ``killer app'' that opens 
computing to a new community by solving an important problem or 
creating a new capability. Thus, for scientists to realize fully the 
acceleration enabled by the power of the cloud, they also need a full 
complement of powerful, yet easy to use tools that are accessible via 
familiar PC and smartphone interfaces.
    To accelerate access to cloud computing for research discovery, 
data analysis and multidisciplinary collaboration, Microsoft has formed 
a deep partnership with the National Science Foundation (NSF) to 
provide researchers with scalable cloud tools and services, accessible 
via client PCs. Thirteen research teams from across the country, whose 
proposals were selected via the NSF peer review process, have been 
awarded funding through the program and are being given access to 
Windows Azure \3\ for a two-year period. In addition, a Microsoft 
support group, composed of software developers and researchers, is 
working directly with the teams to help them quickly integrate cloud 
technology and equip them with a set of common tools, applications and 
data collections that can be shared with the broad academic community.
---------------------------------------------------------------------------
    \3\ Windows Azure is Microsoft's cloud computing platform that 
provides on-demand computing and storage to host, scale and manage 
applications and data through Microsoft data centers.
---------------------------------------------------------------------------
    The NSF awardees cover a diverse set of topics, but two examples, 
as described in the NSF announcement of the awards, illustrate the 
opportunities made possible via the NSF-Microsoft partnership \4\:
---------------------------------------------------------------------------
    \4\ See NSF Press Release of April 20, 2011 at http://www.nsf.gov/
news/news--summ.jsp?cntn--id=119248.

<bullet>  University of South Carolina (Jonathan Goodall) and the 
University of Virginia (Marty A. Humphrey)- Managing Large Watershed 
Systems. Understanding hydrologic systems at the scale of large 
watersheds is critically important to society when faced with extreme 
events, such as floods and droughts, or with concern about water 
quality. Climate change and increasing population are further 
complicating watershed-scale prediction by placing additional stress 
and uncertainty on future hydrologic system conditions. This project 
advances hydrologic science and water resource management by creating 
and using a cloud-enabled hydrologic model and data processing 
workflows to examine the Savannah River Basin in the Southeastern 
United States. This will provide the detail and scale necessary to 
address fundamental research questions related to quantifying impacts 
---------------------------------------------------------------------------
of climate change on water resources.

<bullet>  Virginia Tech (Wuchun Feng)- Conducting Intensive 
Biocomputing. With DNA sequencers in the life sciences able to generate 
a terabyte--or one trillion bytes--of data a minute, the size of DNA 
sequence databases will increase 10-fold every 18 months . . . This 
research team aims to create a new generation of efficient data 
management and analysis software for large-scale, data-intensive 
scientific applications in the cloud. They will leverage recent 
experience in delivering reliable computing over volatile cloud 
resources to further enhance the robustness of data management and 
analysis software. They will strive to eliminate the need to assume 
``no hardware failures'' or ``very infrequent failures'' as is the case 
with traditional HPC data-management techniques.

    Working in collaboration with the NSF teams, Microsoft has 
continued to develop client tools to leverage the power of the cloud 
and empower the research community. One example is an addition to 
Microsoft's Excel spreadsheet software, called Excel Datascope. 
Directly from Excel, a user can share data with collaborators around 
the world, discover and download related data sets, or sample from 
extremely large data sets in the cloud. It also provides new data 
analytics and machine learning algorithms, the execution of which 
transparently takes place on Windows Azure.

Driving Efficiencies, Innovation and Agility for Businesses and 
Governments.

    The business questions are the same for any young entrepreneur or 
seasoned CEO. \5\ How do I differentiate myself from my competition? 
How do I best deploy my resources and maximize the return on my 
investment? How can I be nimble? How can I survive and flourish? To 
answer these questions, a leader must understand and use the disruptive 
economic and technological forces of his or her time.
---------------------------------------------------------------------------
    \5\ The business-related topics in this section were also discussed 
in a supplemental advertorial by Dr. Daniel A. Reed in the June 2011 
issue of Harvard Business Review.
---------------------------------------------------------------------------
    The cloud offers small and large companies alike new opportunities 
to focus on core capabilities, compete in new ways in new markets, 
reduce capital costs, and increase efficiencies.
    Before the cloud, a small company could only create an Internet 
presence or harness IT capabilities by buying and building IT 
infrastructure and hiring IT support staff, a daunting and financially 
challenging prospect for many. Large companies who used IT to support 
their businesses in new or increased ways faced the same challenges. 
The best and worst experience that could happen to a company was that 
its latest ``widget'' would be suddenly popularized in the media, and a 
deluge of queries or orders would appear in a short time frame, 
overwhelming its IT infrastructure.
    Cloud computing allows elastic scaling to meet varying demand, not 
only in the capability but also in the management of that 
infrastructure. With cloud computing, companies of all sizes can be 
nimble and make forward bets--quickly and without large capital costs. 
This enables those smaller companies to compete globally with companies 
of all sizes, fostering an environment of innovation and growth, and 
enables larger companies to scale and handle burst demand, as well as 
experiment with new products, approaches, or business models.
    Moreover, by reducing infrastructure cost and IT staff 
requirements, the cloud also lets companies focus on their core 
competencies, delivering their unique products and services to their 
customers. The lesson of business over time has been that success 
accrues to those companies who focus on their differentiated 
competencies, and partner with the other companies who specialize in 
ancillary or support services. The core competency of healthcare 
providers, manufacturers, retailers and others is not the management of 
IT infrastructure.
    Further, the cloud offers unique opportunities to support global, 
multi-party and neutral collaborations-allowing a diverse set of 
scattered experts to bring their expertise to bear on a joint activity. 
No matter how large a business is, there is both a collaborative as 
well as a competitive environment with other companies or entities. The 
ability to share and extract insights from information by virtue of 
partnerships with multiple parties is a powerful concept. This is 
particularly important in this time of converging industry sectors-
smart vehicles are bringing auto manufacturers, energy utilities, and 
entertainment companies together. Collaboration among these diverse 
parties raises a host of issues--extracting the relevant data, 
correlating concepts, bridging cultural and technological divides, and 
alleviating competitive concerns. The cloud allows all these parties to 
access the data in neutral ways, using shared or separate tools, and to 
collaborate using many different models for responsibility, data 
ownership, and service delivery.
    Just as it does for businesses, the cloud can enable local 
governments and federal agencies to focus on their core competencies 
rather than IT and to act nimbly. Rarely is IT a government service 
itself; it is an enabler that allows government to conduct essential 
operations and deliver services. Government can take advantage of the 
efficiencies of the cloud to lower operating costs for government 
services, to deliver new services in more nimble and adaptive ways, and 
to partner with other organizations.
    The city of Miami, for instance, is using Microsoft's Windows Azure 
cloud platform for Miami311, an online service that allows citizens to 
map some 4,500 non-emergency issues in progress. The 311 package 
combines multiple IT capabilities, including mapping, communications, 
web-based interfaces, and databases and systems for tracking calls and 
responses. These combined capabilities have enabled the city to 
transform what had been a difficult-to-use list of outstanding service 
requests into a visual map that shows citizens each and every 
``ticket'' in progress in their own neighborhood and in other parts of 
the city.
    Clouds, together with data-generating sensors, provide the 
mechanisms to combine and analyze large data sets in new ways and 
extract insights. Consider all the data that has been collected by the 
U.S. government, much of which has been used sparingly or by single 
programs or agencies. Clouds could allow data from different agencies, 
different levels of government, state or federal, and even the private 
sector to be combined and used in powerful ways. One could think about 
connecting historical earthquake data with local information about 
building codes and private information about insurance policies, or 
using health data to analyze populations and respond to flu outbreaks 
or emergencies in real time.
    One example of combining input from multiple government 
organizations is the Pew Voting Information Project. This project is 
building on Microsoft's cloud to provide official, customized data for 
voters on relevant information, such as polling place locations, 
including maps and directions, along with a list of candidates and 
issues on the ballot. The cloud implementation allows Pew to scale up 
the process of merging data from multiple sources and to facilitate 
interfaces and tools that allow others to create and disseminate 
applications that build on this information.

Enriching Experiences to Empower Individual Citizens.

    Today, most of us own hundreds of computers, from PCs and 
smartphones to embedded devices in our cars, home appliances, and 
entertainment systems, and we interact with thousands of others 
embedded in society's everyday supporting infrastructure, from health 
monitors to traffic sensors. The number of such devices is soon 
projected to exceed 50 billion, most connected to the Internet, 
communicating device-to-device, device-to-cloud, and cloud-to-device. 
The future is a seamlessly connected world of devices and services.
    Today, we can already see glimpses of this. While in transit, I can 
use my smartphone to connect to Microsoft's Bing search engine and ask 
a question. With the location from the smartphone's GPS, speech-to-text 
translation and location-specific data, Bing can return an answer--the 
nearest movie theater is four blocks away; click here for directions 
and to purchase a ticket. Such tailored, contextually appropriate 
experiences are only possible through the combination of devices, 
sensors and diverse cloud services.
    In the future, my smartphone and the cloud might well cooperate 
with my plug-in hybrid car. The appointments in my smartphone's 
calendar, together with traffic data and my car's continuously 
monitored energy usage will allow the cloud to plan my driving route 
and charging plan, even alerting the utility as to the expected energy 
load from all cars being charged. While this might sound like science 
fiction, scenarios like this are being explored today, enabled by the 
combination of devices, networks and clouds.

III. The Next Steps: Recommendations for Moving Forward

    To realize the opportunities that the cloud creates for research, 
business, government, and individuals, there are specific steps the 
U.S. government should consider in four areas.
    1. Deploy the Cloud for Government and Research Use. The U.S. 
government, including research agencies, should be at the forefront of 
deploying the cloud in innovative and effective ways.
    The federal government is actively exploring and implementing cloud 
solutions across many agencies. In so doing, it is discovering, as has 
the private sector, that clouds provide operational efficiencies and 
new sources of value. The federal government should move expeditiously 
to adopt cloud capabilities, beginning with those services and data 
that directly match industry experiences and best practices. NIST can 
and is playing a valuable role in disseminating cloud best practices 
across the U.S. government, in defining standards for cloud security 
and in working with other groups to foster understanding of 
opportunities afforded by clouds. In addition, the government should 
explore how clouds could allow data from different agencies, different 
levels of government, and even the private sector, to be combined and 
used in powerful new ways.
    Second, and specifically, federal research agencies should embrace 
the cloud to host large-scale data sets, accelerate scientific 
discovery and create new opportunities for data intensive exploration 
and multidisciplinary collaboration. In addition, the federal rules for 
allowable research expenses should encourage and enable the use of IT 
services, such as the cloud, where appropriate, rather than duplicative 
purchase and maintenance of IT infrastructure.
    Finally, federal research agencies should also support the 
development and implementation of new algorithms and tools that 
simplify access to the burgeoning scientific data archive, facilitating 
collaboration and ease of use. These tools would reduce the time 
researchers, staff and students spend on IT management, allow more 
scientists to tap the power of the cloud and more easily build and 
share analyses and insights. The tools and techniques developed by and 
for researchers analyzing and interpreting large quantities of 
heterogeneous data have potentially broad applicability in domains as 
diverse as health, security, energy, and business analytics.
    2. Ensure Adequate Wired and Wireless Connectivity. The web and 
cloud services depend on broadband communications. Without them, 
service and information sharing are impossible. Concomitantly, ensuring 
reliable wired and wireless connectivity, with adequate bandwidth and 
latency, is critical to ensuring successful adoption of the cloud and 
realization of its benefits. The phenomenal growth of digital data, the 
rise of streaming media services, and the explosive growth of Internet-
connected devices are all straining our nation's broadband 
infrastructure.
    It is critical that we continue to design and deploy new backbone 
networks that support higher data rates, develop and deploy new 
protocols and infrastructure for the next generation of wireless 
networks and define the global standards that will shape the future of 
the globe-encircling cloud. We must also remember that digital access 
to information and services is increasingly the enabler of economic 
competitiveness, of lifelong education in a rapidly changing world, and 
of government efficiency and service delivery.
    These are technology challenges, requiring new semiconductor 
approaches and device designs, optical networks and switches, and 
software and adaptive spectrum management. They are also policy 
challenges, where the growth of demand and shifting expectations 
challenge our existing approaches to network regulation, construction, 
deployment and operation. We need to adopt a new model that fosters 
innovation and rapid, large-scale deployment, recognizing that the pace 
of change is quickening.
    3. Foster Continued Support for Computing Research and Education. 
Today's cloud technology-software and services, servers and storage, 
PCs and smart phones, wired and wireless networks-is derived from basic 
computing research conducted by universities, government laboratories, 
and companies over the past four decades. Yet each new computing era 
brings new questions and new research opportunities and needs. Clouds 
are no exception.
    To ensure that the U.S. continues to remain at the forefront of 
cloud technology, continued investment in basic research is critical. 
There are deep and open questions in areas as diverse as the future of 
silicon scaling and system-on-a-chip design, energy-efficient system 
design, primary and secondary storage, data mining and analytics, wired 
and wireless networks, system resilience and reliability, privacy and 
security, and user interfaces and accessibility, to name just a few. 
Insights and innovations from this research will spawn new companies, 
create jobs and reshape our future.
    In addition to continued research investment, it is critical to 
support the pipeline that produces researchers, and others who will 
able to invent new uses of the cloud and information technology. The 
Bureau of Labor Statistics estimates that the computing sector will 
have 1.5 million job openings over the next ten years, yet the number 
of graduates receiving Bachelors, Masters or Ph.D. computer science 
degrees in 2009 was approximately 45,000. While the number of degrees 
is trending upward, it falls far short of where it needs to be to meet 
the demand. For example, in May, Microsoft had 4,551 unfilled job 
openings, of which 2,629 were for computer science positions.
    To meet this current and future demand, the U.S. must strengthen 
the quality of and access to computing education at all levels, 
particularly K-12. Such efforts, by federal, state, and local 
governments, as well as by companies and non-profit organizations, will 
not only provide a more capable and larger workforce for IT research 
and operations, but also raise the overall computing-related 
capabilities of the population. Strong analytical thinking and 
understanding of technological systems will be necessary for many 
careers as IT continues to permeate more and more aspects of society.
    Consistent with these concerns about the IT workforce and computing 
education, Microsoft is a founding member of the Computing in the Core 
coalition, which supports computer science education, particularly at 
the K-12 level. To tackle these challenges, the coalition advocates for 
coordinated efforts on a number of fronts: improving the training, 
certification, and support for K-12 computer science teachers, as well 
as increasing their numbers; improving the available standards and 
assessments, and developing appropriate courses, for K-12 computer 
science courses; ensuring that computing courses count toward a 
student's core graduation requirements; and expanding access to and 
participation in computing courses by under-represented populations.
    4. Revise Policies in Light of Technology Change. Every new 
information technology shift brings change. In each case, the benefits 
of change accrue to the prepared and adaptable. Many of our current 
policies and regulations have not kept pace with new technology 
developments, and their revision is important to accelerating the 
implementation and benefits of cloud.
    Many such issues are discussed in the report of the Commission on 
the Leadership Opportunity in U.S. Deployment of the Cloud (CLOUD\2\), 
which has been described by another witness at this hearing. For 
example, policies around the Electronic Communications Privacy Act, 
processes for pursuing and prosecuting cybercriminals, privacy 
frameworks, and transnational data flows require reconsideration in 
light of current technologies and in recognition that technology is 
rapidly evolving.
    The best approach in a time of rapid technological change is to 
establish policy goals and a flexible framework for achieving them, and 
to avoid focus on specific technological approaches that could chill 
innovation or quickly become outmoded.
                                  ***
    The cloud is the foundation of the 21st century digital economy. 
This is an exciting time, when the future becomes the present. Access 
to the power of the cloud can be a great equalizer, providing access to 
the world's knowledge base to individuals, anywhere, anytime; 
empowering entrepreneurs and companies large and small to sell their 
products and ideas globally; and enabling scientists and engineers to 
discover and innovate in ways that will define the future.
    Will we come together and take the steps necessary to prepare and 
enable this vision for the future? I believe we can and we will. 
Working together, the private and public sectors can ensure U.S. 
competitiveness and cloud adoption in the short term, and realize the 
benefits that result from the cloud's new capabilities and experiences 
in the long term.
    In conclusion, let me thank you for this Committee's longstanding 
support for scientific discovery and innovation. I would be pleased to 
answer any questions you might have.

    Chairman Quayle. Thank you, Dr. Reed. I now recognize Mr. 
Combs for five minutes.

STATEMENT OF MR. NICK COMBS, FEDERAL CHIEF TECHNOLOGY OFFICER, 
                        EMC CORPORATION

    Mr. Combs. Chairman Quayle, Ranking Member Lujan, and other 
distinguished Members of the Subcommittee, thank you for the 
invitation to address both the opportunities and challenges 
associated with cloud computing.
    My name is Nick Combs and I am the Chief Technology Officer 
for EMC Corporation's Federal Division. Prior to joining EMC, I 
spent 25 years in the Federal Government, including senior 
positions in the Department of Defense and the intelligence 
community. Over the course of my career, I experienced many of 
the IT challenges facing organizations today, particularly as 
enterprises transition to cloud services.
    For today's testimony, I was asked by the Subcommittee to 
discuss some of the major cybersecurity challenges facing cloud 
service providers and adopters.
    During the past couple years, the frequency, volume, and 
impact of cyber attacks has reached pandemic levels. Those 
attacks are resulting in real economic harm, as well as posing 
very significant national security challenges. Because the 
Internet is used by everyone everywhere, by large and small 
government and commercial organizations, there are multiple 
avenues of exploitation. The targets of more advanced cyber 
attacks now include organizations as diverse as pharmaceutical 
and automotive companies to the defense industrial base and 
government agencies, and yes, even information security 
companies.
    As you may know, RSA, the Security Division of EMC, 
announced on March 17 of 2011 that it detected a sophisticated 
cyber attack on its systems. The attack on RSA was a stark 
reminder to us and for the entire information security 
community that no one is immune from cyber attacks. The attack 
also reflects the sophistication of advanced attackers in 
understanding the interconnections and the interdependencies 
organizations have in our network world and how to exploit 
those relationships to achieve their goals.
    And this brings us to cloud computing, which is 
fundamentally changing the way that organizations think about 
IT. There is a lot of confusion in the market today, especially 
around what type of clouds and what type of data is appropriate 
to go into those clouds, whether it is public, private, 
community, or hybrid, CIOs must have the information available 
to make risk-based decisions on what information should be 
placed into what types of clouds. Most security architectures 
of today are nothing more than a broken safety net of point 
security solutions products.
    During the next several years, cloud computing adoptions 
could enable organizations to improve information security by 
replacing the disparate and legacy IT systems that are so 
common today. Instead of having IT and information security 
organizations protecting stovepipe systems, organizations are 
able to implement centralized monitoring, management, and 
security solutions. Security is also being built into the 
information infrastructure that makes the foundation of the 
cloud, including virtualization and data storage platforms.
    Cloud computing holds special promise for smaller 
organizations which left to their own device cannot always 
afford the advanced expertise and technologies necessary to 
protect against today's threats. Those organizations, by 
consuming IT services from cloud providers, can gain the 
benefits of advanced security in an affordable way.
    Through the cloud, organizations can centrally manage their 
IT systems and provide uniform policy implementations. They 
will reduce the operating and management cost, thus freeing up 
resources to address other needs.
    EMC supports the Administration's ``cloud-first'' strategy, 
and along with the ongoing data center consolidation efforts, 
we believe that the policies, if fully implemented, will save 
the Federal Government billions of dollars in IT budgets 
annually. In this skyrocketing budget deficits and new budget 
caps, now is the time for Federal Government agencies to 
adopt--to accelerate their adoption of cloud infrastructure and 
services.
    Many federal agencies have already begun to build the 
cloud--the bridge to the cloud by adopting some form of 
virtualization. For example, right here in the House of 
Representatives, your IT organization has utilized 
virtualization in its transition to the cloud. Technologies and 
best practices exist today to deliver private cloud 
environments inside federal organizations to gain dramatic IT 
improvements and IT efficiency while also providing the 
security required to protect the sensitive information within 
the government enterprise.
    Security must be--must evolve to become much more centered 
around the users and on the information they are accessing. For 
that reason, emerging technology practices such as adaptive 
authentication and data loss preventions are both widely used 
in the commercial world and should be increasingly used in 
Federal Government agencies.
    As I conclude my testimony, I would like to comment on the 
role of NIST in advancing cloud computing and trust in the 
cloud. Through its cloud computing workshops, NIST has already 
played a vital role in bringing together the public and private 
sectors to zero in on security interoperability and portability 
challenges related to the cloud. Congress should also allow 
federal agencies to select the cloud deployment models that 
best fit the business needs and security needs rather than 
favoring one cloud model over the other.

    I again thank the Committee for allowing me to contribute 
to this hearing today. Thank you and I look forward to your 
questions.
    [The prepared statement of Mr. Combs follows:]
Prepared Statement of Mr. Nick Combs, Federal Chief Technology Officer, 
                            EMC Corporation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Quayle. Thank you, Mr. Combs. I now recognize Dr. 
McClure to present his testimony.

                STATEMENT OF DR. DAVID MCCLURE,

      ASSOCIATE ADMINISTRATOR, OFFICE OF CITIZEN SERVICES

  AND INNOVATIVE TECHNOLOGIES, GENERAL SERVICES ADMINISTRATION

    Dr. McClure. Thank you, Chairman Quayle and Congressman 
Lujan. It is a pleasure to be here, and I would like to applaud 
the Subcommittee's leadership in expanding the dialogue and 
understanding of new cloud technologies, and the risks and the 
rewards they offer for modernizing the government's IT.
    As you have heard from the other witnesses today, cloud 
computing really offers a compelling opportunity to 
substantially improve the efficiency, agility, and performance 
of federal IT. With cloud, agencies pay only for the resources 
they use in response to fluctuating demand, they avoid the 
expenses of building and maintaining costly IT infrastructure, 
and ensure the appropriate level of security for data and 
applications.
    At GSA, we are developing new cloud computing procurement 
vehicles that leverage the government's buying power, we are 
ensuring effective cloud security standards are in place to 
lower risk, we are identifying and leveraging government-wide 
adoption of cloud solutions such as email and collaboration. My 
written statement highlights our significant progress under the 
25-point IT Reform Plan in areas like data center consolidation 
analysis and cost-modeling, more robust government-wide 
security approaches under the soon-to-be-launched FedRAMP 
program, and efficient procurement vehicles.
    Let me summarize my written statement provided to you with 
three key points. First, agency executives should focus on the 
desired government, business, or mission outcome driving cloud 
adoption rather than cloud technology itself. We know there are 
opportunities for improving the cost-effectiveness and 
efficiency of IT used in the Federal Government. CIOs need to 
develop and deploy effective cloud solution strategies that 
address pressing agency needs taking into account cost savings 
and expected performance improvements. Agencies must analyze 
business needs and identify cloud solutions that best fit their 
requirements by making cloud adoption part of an overall IT 
portfolio management and sourcing strategy.
    In short, cloud readiness assessments and prudent 
decisional roadmaps are essential to move forward both 
decisively and expeditiously in cloud computing.
    Second, while early, we definitely are seeing concrete 
benefits from the adoption of cloud computing solutions in the 
Federal Government, particularly for low- and moderate-risk 
data areas. At GSA and USDA, for example, we expect to see 
email costs cut by 50 percent, and many other agencies are 
projecting similar results.
    The benefits are not just around cost reduction. Cloud 
deployments allow for much faster deployment of systems and 
applications. Provisioning can occur in hours or days as 
opposed to traditional months or years. It can increase 
productivity, it gives agencies greater flexibility and 
scalability, it enhances our sustainability postures, and it 
improves self-service capabilities. As agencies consolidate 
their virtual data centers, cloud provides an ideal path 
forward.
    Third, while the path forward for cloud computing is 
positive, we still must pay attention to the inherent risk 
associated with its use, as is the case in virtually all 
technology areas. The risks generally revolve around the 
evolution of some key standards designed to address technical, 
operational, and managerial risk associated with computing in 
general. Let me mention three key standard areas.
    Number one is establishing baseline security standards that 
must be met by cloud service providers. We are taking steps to 
achieve this via our FedRAMP program, which we have designed 
with extensive industry and government-wide participation and 
feedback. We are establishing a common set of baseline security 
assessments and continuous monitoring requirements for cloud 
computing using NIST standards. We are providing a common, 
consistent, security-risk and authorization process that can be 
leveraged across agencies, the use-once-and-often approach.
    Certifying qualified, independent, third-party assessors is 
another area where we are spending a great deal of attention so 
that we can bring some consistency and uniformity in how cloud 
security assessments are done. And we are shifting the risk 
from annual reporting under FISMA to more robust continuous 
monitoring providing real-time detection and demonstration of 
successful mitigation of vulnerabilities.
    The other two standards areas involve interoperability and 
data portability. NIST is taking the lead in these two areas. 
It is aggressively pursuing use-case study approaches that can 
adequately demonstrate the utility of proposed standards in 
test scenarios so that market solutions can proceed and be 
moved into the Federal Government. These two things can help 
protect against vendor lock-in and ensure data reconstitution 
should an agency decide to move its services to another 
provider.
    Thank you, Mr. Chairman. That concludes my statement. I 
would be glad to respond to any questions.
    [The prepared statement of Mr. McClure follows:]

   Prepared Statement of Dr. David McClure, Associate Administrator,
        Office of Citizen Services and Innovative Technologies,
                    General Services Administration
Chairman Quayle and Members of the Subcommittee:
    Thank you for the opportunity to appear before you today to discuss 
the General Service Administration's (GSA) leadership role in ongoing 
efforts to enable and accelerate adoption of cloud computing across the 
federal government. Cloud adoption is a critical component of the 
Administration's plan to improve management of the government's IT 
resources. The reforms underway are enabling agencies to use 
information more efficiently and effectively, delivering improved 
mission results at lower cost.
    Cloud computing offers a compelling opportunity to substantially 
improve the efficiency, agility and performance of the federal 
information technology portfolio. It allows agencies to pay only for 
the resources they use in response to fluctuating demand, avoid the 
expenses of building and maintaining costly IT infrastructure, and 
control the appropriate level of security for data and applications. 
Cloud computing is also a key technology for achieving cost effective 
IT. In fact, agencies have already started to realize numerous benefits 
as they begin to adopt cloud computing across their programs. These 
include cost reduction, faster deployment of systems and applications, 
increased productivity, greater flexibility and scalability and 
improved self-service capabilities. As agencies consolidate and 
virtualize their data centers, cloud provides an ideal path forward to 
achieve needed results while substantially lowering costs--an essential 
focus given federal budget constraints.
    GSA is playing a leadership role in facilitating easy access to 
cloud-based solutions from commercial providers that meet federal 
requirements, enhancing agencies' capacity to analyze viable cloud 
computing options that meet their business and technology modernization 
needs, and reducing barriers to safe and secure cloud computing. We are 
developing new cloud computing procurement options with proven 
solutions that leverage the government's buying power, ensuring 
effective cloud security and standards are in place to lower risk, and 
identifying and leveraging government-wide uses of cloud computing 
solutions such as email. These are highlighted on our web page 
Info.Apps.gov, which provides useful information about cloud computing 
and available solutions.
    The Administration's efforts to apply rigor to information 
technology management and foster cloud adoption is framed by several 
key guidance documents and policies, including the OMB 25 Point 
Implementation Plan to Reform Federal Information Technology Management 
and the Federal Cloud Computing Strategy issued by the federal CIO's 
office. The initiatives being implemented in response to these 
documents are making significant progress tackling long standing 
challenges in the way IT is acquired and managed. These reforms are 
also meeting the Administration's goals to make government more 
responsive, operationally effective, cost efficient, transparent, 
participatory, collaborative, and innovative for the citizens it 
serves.

The Subcommittee asked that I address the four questions outlined 
below.

    (1)  Please provide an overview of how the General Services 
Administration (GSA) is implementing the Office of Management and 
Budget's (OMB) 25 Point Implementation Plan to Reform Federal 
Information Technology Management, the OMB Federal Data Center 
Consolidation Initiative, and the Federal Chief Information Officer's 
Federal Cloud Computing Strategy.

    GSA plays a central role in realizing the goals set forth in the 
Administration's initiatives and strategies to reform IT management, 
consolidate data centers and implement cloud computing. Below are the 
primary initiatives underway to achieve the policy goals of Data Center 
Consolidation, the Cloud Computing Strategy and the specific objectives 
of the 25 Point Plan.
    Below is an overview of the work we are conducting to support 
specific objectives of the Federal IT Reform Strategy. Each objective 
of the 25 Point IT Reform Plan for which GSA is directly responsible is 
identified in bold; the specific section is in parenthesis.

Complete detailed implementation plans to consolidate at least 800 data 
centers by 2015 (#1)

Create a government-wide marketplace for data center availability (#2)

    The Federal Data Center Consolidation Initiative (FDCCI), managed 
jointly by GSA and OMB, is charged with reversing the federal 
government's explosive data center growth to optimize and improve 
efficiency of federal IT infrastructure. The FDCCI is chartered to 
engage with agencies, support and facilitate agency data center 
consolidation planning, and to provide tools to federal partners.

Under the FDCCI, GSA is accomplishing the following:

    <bullet>  Working with a government-wide task force co-chaired by 
DHS and DOI that meets monthly and includes representatives from all 24 
CFO Act agencies.

    <bullet>  Assisting agencies to maximize the return on investments 
for data centers to remain in their inventory after consolidation

    <bullet>  Ensuring consistent data collection of the federal data 
center inventory by developing and disseminating standard templates to 
collect, manage, and analyze agency data center inventory data.

    <bullet>  Collaborating with industry on best practices and 
solutions for key data center consolidation issues.

    <bullet>  Developing a comprehensive data center Total Cost Model 
for agencies to use to analyze alternative consolidation scenarios, 
enable data-driven decision-making for infrastructure cost and 
performance optimization.

    <bullet>  Pursuing development of a data center marketplace that 
would help optimize infrastructure utilization across government by 
matching agencies with excess computing capacity with those that have 
immediate requirements. A working group is addressing consensus-
building, requirements gathering, and other key facets necessary to 
ensure the marketplace's success.

Stand up contract vehicles for secure IaaS solutions (#4)

    IT infrastructure represents a multi-billion dollar investment that 
requires constant maintenance, expensive technology upgrades, and 
dedication of valuable personnel. Agencies are faced with outdated 
infrastructure requiring ongoing, major investments to keep pace with 
growing demand and rapidly changing technology. Servers across both 
government and industry are highly underutilized. To address these 
issues, GSA's Federal Acquisition Service (FAS) established a Blanket 
Purchase Agreement (BPA) with 12 companies (many with multiple 
partners) that offer cloud storage, computing power, and cloud-based 
website hosting as commodity services that enable agencies to optimize 
their infrastructure and achieve substantial, long-term cost savings. 
Under these Infrastructure as a Service (IaaS) contracts, agencies pay 
only for what they need, define performance requirements, have the 
flexibility to respond to changing demands, benefit from commodity 
pricing, and are assured of secure solutions. At present, four 
contractors are offering services under the BPA, with the remaining 
completing the security authorization process. DHS has recently awarded 
a task order under this BPA for the consolidation and migration of its 
public facing websites to a cloud hosting service.

Stand up contract vehicles for commodity services (#5)

    Working closely with email and collaboration experts from across 
government, GSA developed a government-wide contract vehicle to help 
agencies move email and collaboration solutions to the cloud. The Email 
as a Service (EaaS) BPA is an active procurement managed by FAS; 
responses are currently being evaluated. It will offer federal 
customers a streamlined procurement vehicle to commercially available 
cloud email solutions that best fits their agency's needs. Based on 
information from Forrester Research, average cost savings for agencies 
migrating to cloud-based email are expected to be $11/mailbox/month, $1 
million in annual savings for every 7,500 users, or approximately 44% 
over existing on-premise email solutions. The BPA will offer a range of 
email services in public, private, and highly secured clouds, making 
available robust, feature-rich, secure email and collaboration service 
options similar to those currently being implemented at GSA, USDA, 
USAID, DOE, and other agencies. It can meet the needs of the 15 
agencies that have identified 950,000 e-mail boxes they plan to move to 
the cloud under the Administration's IT Reform effort.

Launch an interactive platform for pre-RFP agency-industry 
collaboration (#25)

    To streamline the procurement process and enhance communication 
with industry, GSA is establishing ``cross-trained'' program teams and 
improving the way requirements are defined. GSA is working to establish 
an interactive platform for pre-RFP agency-industry collaboration. 
Based on input from government and industry, alternatives for design 
and delivery of an online collaboration tool have been examined and 
rated. Candidates for the tool included existing government systems and 
commercial collaboration tools.
    GSA not only is fostering adoption of cloud computing government-
wide, but as required under the Cloud First policy, has recently 
completed a major cloud migration of our internal email and 
collaboration solution that demonstrates the significant potential of 
cloud solutions to achieve substantial cost savings. In approximately 
seven months, we moved 17,000 users to Google Apps for Government. 
Savings over the next five years are projected to be over $15M. Not 
only have we reduced costs, but we have also made significant gains in 
environmental sustainability--we shut down 45 servers, which is 
equivalent to taking 60 cars off the road. The lessons learned from our 
cloud implementation have been captured and are being shared with 
agencies across the government as they seek to achieve similar success.

2. Please provide an overview of the costs associated with implementing 
these plans at GSA, and provide a description of both the short-term 
and long-term budgetary impacts of these changes.

    To date, GSA's Federal Cloud Computing Initiative has been funded 
under the e-Government program administered by the Federal Chief 
Information Officer. In FY10 and FY11 GSA's Federal Cloud Computing 
Initiative (FCCI) Program Management Office (PMO) budget of $4.8 
million was allocated to five primary tasks:

    <bullet>  Establish procurement vehicles that allow agencies to 
purchase IT resources as commodities--resulting in the award of the 
Infrastructure as a Service (IaaS) Blanket Purchase Agreement under GSA 
Schedule 70

    <bullet>  Address security risks in deploying government 
information in a cloud environment--resulting in the development of the 
Federal Risk Authorization Management Program (FedRAMP)

    <bullet>  Establish a procurement vehicle that allows agencies to 
purchase cloud-based e-mail services--resulting in the issuance of the 
Email as a Service (EaaS) procurement that is currently underway Work 
with agencies to consolidate their data center asset--resulting in the 
Federal Data Center Consolidation Initiative that works with agencies 
to inventory their data center assets and to identify targets for 
consolidation and optimization Create apps.gov, an on-line storefront 
that provides access to over 3,000 cloud-based products and services 
where agencies can research solutions, compare prices and place on-line 
orders using GSA's eBuy system.
    This initial funding provided by the e-Gov Fund allowed GSA to 
accomplish significant results. However, there are key activities that 
still need to be accomplished to realize the significant, additional 
potential cost savings and productivity improvements that GSA can help 
agencies achieve. The continuation of these cost-saving initiatives is 
dependent on FY12 eGov Fund budget levels and decisions.

3. What cybersecurity steps is the GSA taking to protect federal data 
and communications in the cloud? To what extent does GSA work with NIST 
on the development of cybersecurity standards for federal cloud 
computing use?

    The primary goal of the Administration's Cloud First policy is to 
achieve widespread practical use of secure cloud computing to improve 
operational efficiency and effectiveness of government. Currently, each 
agency typically conducts its own security Certification and 
Accreditation (C&A) process for every system it acquires, leading to 
unnecessary expense, duplication and inconsistency. According to the 
2009 FISMA report to Congress, agencies reported spending $300M on C&A 
activities alone.
    Working in close collaboration with DHS, NIST, DoD and OMB and the 
Federal CIO Council, GSA is leading establishment of the Federal 
Authorization Risk Management Program (FedRAMP) to accelerate adoption 
of secure cloud solutions by agencies across government.

Key benefits include:

    <bullet>  Provides a single, consistent security risk assessment 
and authorization that can be leveraged across agencies--an ``approve 
once, and use often'' approach

    <bullet>  Establishes a common set of baseline security assessment 
and continuous monitoring requirements using NIST standards

    <bullet>  Approves and makes available qualified, independent third 
party assessors, ensuring consistent assessment and accreditation of 
cloud solutions and based on NIST's proven conformity assessment 
approach

    <bullet>  Shifts risk management from annual reporting under FISMA 
to more robust continuous monitoring, providing real-time detection and 
mitigation of persistent vulnerabilities and security incidents.

    There is strong support and demand for FedRAMP from agencies 
seeking to adopt cloud services, as required by the Administration's 
Cloud First policy, and from industry. FedRAMP's processes, policy, 
governance, and technical security standards have all been arrived at 
via a consensus-based approach that includes agencies' Chief 
Information Security Officers, the Federal CIO Council, National 
Institute of Standards and Technology (NIST), Department of Homeland 
Security (DHS), Department of Defense (DoD), National Security Agency 
(NSA), and numerous industry organizations. This new program is 
expected to be initially launched this Fall.

4. What other challenges face federal agencies in adopting cloud 
computing services, and what steps is the GSA taking to overcome these 
challenges?

    Considerable progress has been made in adopting successful cloud 
solutions. Cloud computing is now an accepted part of the federal IT 
lexicon. However, there continues to be a need for more thorough 
understanding of the cloud's deployment models, unique security 
implications, and data management challenges. Agency executives should 
not focus on cloud technology itself; rather, they should focus on the 
desired outcome driving the need for cloud adoption. CIOs need to work 
with their line of business executives and program managers to develop 
and deploy effective cloud roadmaps that address pressing agency 
mission needs, taking into account costs savings and expected 
performance improvements. Agencies should analyze business needs and 
identify cloud solutions that best fit their requirements by making 
cloud adoption part of an overall IT portfolio management and sourcing 
strategy. NIST is currently working on a Cloud Computing Technology 
Roadmap that will be released in November. If linked to cloud provider 
products and services, it would greatly assist in this decision-making.
    Cultural resistance is also a major challenge. Cloud adoption 
requires moving away from managing physical assets to buying services. 
As GSA's own experience has shown, these issues can be effectively 
addressed. Critical success factors include robust communication, 
practical training and emphasis on the benefits of cloud, and 
especially on the control agencies gain by buying what they need and 
defining performance metrics that are tied to desired performance 
results. GSA found that having a group of early adopters fostered buy-
in and enthusiasm, and provided a ready corps of skilled users.
Conclusion
    Mr. Chairman, General Services Administration is leading the 
Administration's charge to make government more open, transparent, and 
effective for the citizens it serves. In our increasingly data-centric 
and network--based world and workplace, effective and efficient 
procurement and implementation of information technology will be 
paramount in making sure the federal government closes the IT 
performance gap between it and the private sector. Cloud computing and 
data center consolidation are key initiatives that should be pursued 
aggressively to achieve needed costs savings and improve effectiveness 
of government operations.
    Thank you for the opportunity to appear today. I look forward to 
answering questions from you and Members of the Subcommittee.

    Chairman Quayle. Thank you, Dr. McClure, and I want to 
thank all the witnesses for their testimony today.
    Reminding Members that Committee rules limit questioning to 
five minutes, the Chair will at this point open the round of 
questioning, and I will recognize myself for five minutes.
    Mr. Capellas, when looking at the data from the last 10, 20 
years like you pointed out, a lot of the job creation was 
occurring in the IT sector, but it was also occurring with 
companies that are five years or younger, the startup IT, the 
startup companies. In Phoenix where I am from, we have a lot of 
the larger players like Honeywell, Intel, and some of the 
bigger players. We also have some smaller ones as well, but 
where do you think the opportunities for new service and 
application providers in the IT sector are going to come from? 
Does cloud computing offer a unique area for more startup 
companies to really be created in advance in that realm?
    Mr. Capellas. So what we are going to see--great question 
by the way. What we are going to see, I think, is something 
different than we have seen in the past, and we are going to 
have a bifurcation of the two sides of IT. The cloud basically 
says I don't have to care or know where the physical or 
underlying infrastructure is, and today, if you think about 
most cases, most IT shops, 70 percent of all costs go on 
physical hardware and only 30 percent on the real innovation, 
which is the application side. And when you think about what 
other business would you have where you spend 70 percent to 
keep the lifeline and 30 percent to really drive innovation?
    What is happening today in the industry is a level of 
industry verticalization we haven't seen before, so I will be 
respectful to all the players in the industry. If you are a 
Hewlett Packard, you are starting--you are building an entire 
conversion infrastructure from servers to storage to capacity 
and you are going to buy that as a physical. If you are IBM, 
you have got your stack; if you are Oracle, you have got your 
stack; if you are EMC and Cisco in partnership with VM where 
you have got your stack; and it is much more tightly bundled. 
The big players will capture a much larger share of the 
physical side of the infrastructure because the end user will 
want to buy it from one place. And that is the beauty of it. 
You don't have to know or care.
    The second big piece of this is of that physical piece, 30 
percent of all IT resources are just screwing the pieces 
together to make a match. So what will happen is the job 
creation will come from the large players going to the physical 
side with vertical consolidation. Now, what that--on the good 
side of that says is then there will be a lot more people who 
are able to write much quicker applications. The whole world of 
application development will change.
    And so one of the fun things I do is the average person has 
three connected devices and over 100 applications that they do 
on their smartphone and there are 500,000 smartphone 
applications because those applications can be generated very 
quickly because the physical infrastructure is there. So to 
answer your question very specifically, I think the large 
players who are vertically integrated will create the job 
growth, and it is imperative that U.S. companies continue to 
succeed as the foundation of the critical infrastructure and 
there will probably be fewer levels of innovation at the 
physical layer. But that will spawn a whole new generation of 
application developers and smaller companies can write quicker, 
lighter applications and those frameworks will be available 
because you can then drop those applications onto the physical 
infrastructure that is in place. And you will see in the world 
of business and other applications the same kind of just 
massive rollouts you have seen with the--with everybody who has 
got their, you know, iPhone. And how many of you could even 
count how many applications you have on your own phone? You 
probably paid a $1.99 on average for them.
    So application development becomes a foundational piece. It 
opens up for lots of great innovation. That innovation allows 
IT spending to be placed where it belongs most, which is on 
being creative and the big guys take over running the physical 
infrastructure.
    Chairman Quayle. Okay. And then I wanted you to expand on--
because I would want to get an understanding is that the 
commissioner states that one of the things we should do is 
provide incentive for people to migrate to the cloud.
    Mr. Capellas. Yes.
    Chairman Quayle. My question is if you are going to save--a 
company is going to save money and increase efficiency, isn't 
that incentive enough to have people moving--migrating to the 
cloud rather than--why do we need additional incentives to push 
people to the cloud?
    Mr. Capellas. A bit of our recommendation relates 
strictly--is focused on the manner of our procurement of the 
Federal Government and agencies.
    Chairman Quayle. Okay.
    Mr. Capellas. If you think today the way agencies work is 
each of the departments has to measure against a unit of 
measurement. So if I have a personal computer, I can say I want 
it from company A, B, or C. If I want a server company A, B, or 
C but I want to buy a unit of computing, which can be shared, 
there is no benchmark, and so as a result, there tends to be a 
rollover of individual departments acting to simply get five or 
ten percent better than they used to be and groups not wanting 
to share.
    At a fascinating exercise, which was brought about by Vivek 
Kundra, who brought us in to sort of say would you talk to the 
whole group and to see how many data centers could be shared by 
agencies crossing buying in a different way. So one of the 
incentives is to be able to say how about we put an incentive 
in place that says you will get to reinvest in your budget 
cycle what you saved in order to get more collaboration across 
groups but also to change the paradigm to simply buying 
something at five percent more.
    Chairman Quayle. Okay. Thanks. And Dr. Reed, really 
quickly, one of the things that I have been talking with a lot 
of people within the research area is the lack of collaboration 
that has occurred. Do you think that the more people going to 
the cloud will actually increase collaboration, not just 
between the public and private sectors, but also within 
researchers who are working on tandem projects from different 
universities? Because you have been in the universities for a 
while even though it was UNC--I am a Dukie so we still count 
that as a university. But could you just explain that very 
briefly?
    Dr. Reed. Certainly. I think it is actually--it is the 
research version of part of the answer to the question that 
Mike was mentioning as well, which is many of the value 
propositions that exist by virtue of the rise of scientific 
data--and the reason why we have had explosive growth of 
scientific data is the same reason all of us have cheap digital 
cameras and lots of digital photos is because those kinds of 
sensors have made it very possible to capture large volumes of 
data economically. I exaggerate a bit, but that is 
fundamentally the technology piece.
    What has happened in the research world is an analog 
actually of many other phenomena. It is true in industry and I 
think in government that much of the value lies actually in the 
intersection of data from multiple disciplines. And because 
those data tend to be held in silos within individual 
organizations, research universities, or federal agencies, it 
is extraordinarily difficult to cross-fertilize them and look 
at their intersection.
    One of the things that the cloud brings to the table is the 
ability to host that data and make it broadly available so that 
one can extract insight. I think that is true in an 
entrepreneurship level where the ability to mine insight from 
data actually has economic value. It is certainly true in the 
research world as well. And so the ability to attack complex 
problems--because the traditional model of success in academia 
is depth in their own area, and yet many of the problems we 
care about cross not only technical domains but they cross 
social and other domains. The ability to bring people together 
to reason is one of the powers of the cloud.
    Chairman Quayle. Okay. Thank you very much.
    I now recognize Mr. Lujan for five minutes.
    Mr. Lujan. Thank you, Mr. Chairman.
    And Dr. Reed, I appreciate again the panel's attention to 
the cost saving that is going to take place associated with IT 
tools, hardware and software. But I want to zero in on total 
cost, specifically energy. And can you briefly talk about what 
cloud computing means to smart grid application across the 
country as we talk about energy efficiency and lowering utility 
costs, energy consumption costs for businesses small and large, 
for people all around America and what this means to that?
    Dr. Reed. Certainly. Let me start with the cloud itself. 
One of the interesting things that has happened in the back-end 
infrastructure is the growth of that infrastructure at scale 
has driven an enormous focus in the industry on reducing the 
energy consumption of data centers themselves--more efficient 
packaging and cooling and other things. That is one of the 
enabling pieces, and so it is important not to forget energy 
efficiency there.
    But if one looks at the larger question you are posing 
about how does analysis of data enable new possibilities? It is 
actually related to the Chairman's question in an interesting 
way, because if you think about the broad sort of issues about 
how being able to capture data appropriately, anonymized, 
private, and secure from individual homes, the future of hybrid 
and smart vehicles that are electrically powered where you 
could take that information and do intelligent route planning 
so that--reduce the energy consumption for the vehicles and the 
demand on the electrical grid by planning routes accordingly to 
give drivers advice about routes. Similar sorts of issues begin 
to accrue in the home about being able to plan when you turn on 
appliances, how you manage that energy, and then the same sort 
of things apply largely at the large-building scale whether 
they be federal or private buildings where understanding the 
behavior patterns make it possible to do some new things.
    So what brings those two things together? One is this 
incredible world of sensors, and that is part of what the smart 
grid is about. The other is the ability to analyze data at 
unprecedented scale and generate and extract trends and 
behavior. It is true in healthcare; it is true in smart grids 
and energy; it is true in transportation; it is true in all 
kinds of other business, competitive worlds. It is the insight 
from the data that that makes possible.
    Mr. Lujan. I appreciate that and especially with the 
conversation around the smart grid, recently there was a 
conversation in New Mexico that someone described the smart 
grid as the Internet for electricity. As you talk about the 
connectivity and really what it means to integrate, but it is 
really lower cost.
    Along those lines, I would be interested in hearing your 
thoughts or any of the panel on what can be done with NIST or 
with the market as a whole as we talk about containing costs. 
So the cloud will allow us to lower utility consumption right 
now so on the desktop, the hardware that we are using as 
individuals, what can be done to lower the utility consumption, 
lowering cost for the data centers where we are having to spend 
so much money right now on the cooling? Because those 
temperatures when you walk into a server, we all--or data 
center, you all know that it is cooled. What is preventing us 
from getting to the point where those things can run at 72 to 
76 degrees, lowering consumption costs without using outside 
air on the cooling as opposed to doing it inside? That way we 
are lowering costs for the government, the taxpayer, for you 
all and for businesses everywhere.
    Mr. Capellas. Well, that--please, go ahead.
    Dr. Reed. Well, I was going to say that is exactly what is 
happening. Please.
    Mr. Capellas. It is a couple of real simple things. The 
first one, you know, I always love, you know--one of my 
favorite things is unfortunately sense isn't common. Common 
sense tells you whenever you consolidate a huge number of 
servers which are very inefficient--so when you have all these 
small boxes running out there, the best you can hope for is 30 
to 35 percent utilization. That is the best and--whether that 
is servers or storage. When you run these big virtualized 
machines because the way a cloud works is it says I am going to 
go grab a piece of capacity, I am always running at a higher 
level, you are going to 80 or 90 percent capacity utilization. 
So the first question is you have a whole lot more efficiency 
and a whole lot less boxes.
    The second one is just the natural evolution of technology. 
We have designed into these next-generation boxes. They are 
much more environmentally friendly simply because we have taken 
power consumption as a fundamental design to lower it. So part 
of it is just the natural curve. The second place is just the 
much higher utilization that you get off the consumption.
    Mr. Lujan. I appreciate that, Mr. Capellas. Anyone else? 
Mr. McClure?
    Dr. McClure. No, please, go ahead.
    Mr. Combs. I would just like to add, you know, an example 
of EMC's first phase in virtualization doing exactly what 
Michael was talking about, we had $74 million in data center 
equipment savings the first year. 12 million of that was in 
power and space cooling alone. And that was just in the very 
initial stage, which only represents about 20 percent of the 
savings that we have gained over our corporation's transition 
to the cloud. The best practices are out there. Industry is 
already doing this. The Federal Government can just look to 
industry and the successes that we have had in industry and 
apply those within the government.
    Dr. McClure. And I would agree. I think, you know, exactly 
the case at GSA and around the government, the average server--
if you put it in real terms, the average server utilizes about 
4 tons of carbon dioxide waste annually. Every server is the 
equivalent of--if you retire a server, on average, you are 
taking one and a half cars off the streets. So we point to over 
half a million dollars in savings by just doing virtualization 
technologies in our data centers. Up to 60, 70 cars taken off 
the road, you know, these are real terms that is showing that 
you are having an impact on sustainability in a real way. And 
the adoption of new technologies I think is absolutely 
essential as we go forward because the technology improvements 
will continue to occur.
    Mr. Lujan. Thank you, Dr. McClure. I notice that time has 
run out. I think we will get another chance to ask a few 
questions here, but I really appreciate the attention to the 
cost savings that we will yield from energy consumption as well 
for businesses all over the country as well as residential. 
Thank you.
    Thank you, Mr. Chairman.
    Chairman Quayle. Thank you, Mr. Lujan.
    The Chair now recognizes the Chairman of the Full 
Committee, the gentleman from Texas, Mr. Hall.
    Chairman Hall. Mr. Chairman, thank you.
    Dr. Reed, in your testimony, you state that the need to 
adopt a new network policy model that fosters innovation and 
large-scale deployment indicates that you think that they don't 
already have that. I guess my question is what way do you see 
the current model as inadequate and what changes would be 
required to foster innovation and large-scale deployment?
    Dr. Reed. So it is really a comment on the fact that if one 
looks at any set of computing technologies that it is the 
ratios of speeds and capacities that determine the efficacy. So 
if we look at the rise of consumer devices, the speed and power 
consumption of the devices, their performance, their form, 
factor, and mobility really made some things possible.
    One of the challenges we face in networks, there are two 
fundamentally in my judgment, and they are related in the 
spirit that I said networking is the oxygen that lets cloud 
services breathe because it is the conduit of the information 
and services from the data center to the consumer, whether that 
consumer be a government agency, a company, or an individual. 
The rate of growth and scale of the data that is being produced 
is challenging the speed of the broadband networks that we have 
deployed in this country. It is the electronic analog of saying 
we have too many cars on the road; we need to address the 
issue. So the ability to deliver that data reliably and at high 
volume across the country and indeed the connections of the 
rest of the world is a big piece of that.
    The other is the pressure that we are all experiencing in 
wireless communications and the explosive growth of the number 
of devices and the expectations that we all have for not only 
access to data but the ability to deliver multimedia, audio and 
video to those devices is stressing many of the historical 
approaches that we have had, the spectrum allocation and 
management.
    So what I am really saying is we have to face both of those 
issues and work together to address the need not only to 
continue to expand the speed and coverage that we have for our 
optical and wired networks but continue to work together to 
address the access issues that will deliver those just-in-time 
services. Because that smart grid vision of the world depends 
on wired and wireless access to that information to be able to 
make those intelligent decisions.
    Chairman Hall. Well, you say that we have to address--I 
guess if you told me I didn't get your answer as to how, what 
kind of changes would be required? What special changes would 
you make?
    Dr. Reed. So it is a good question. I will try to be a bit 
less circular in my answer. I apologize.
    We have to build out more networks and we have to find 
mechanisms to make that happen more rapidly. On our wired 
networks, if you think about the speeds that we normally 
denominate units in, we talk in units of the Broadband 
Transcontinental Network in units of 10 or 40 gigabytes per 
second. When you consider the fact that a large cloud data 
center contains a nontrivial fraction of the text holdings of 
the Library of Congress, you see the problem. There is a 
mismatch there in the ability to deliver versus the volume of 
data. So we need to accelerate construction.
    What I was also advocating is we continue to need to 
advance the state of the art of the technology. How do we move 
beyond the current rates? How do we address in the spectrum 
areas some more nimble ways that would allow high bandwidth 
data sharing? We are going to have to change some of the 
standardization process, we need to invest in research, and we 
need to find the economic incentives that will drive the 
private sector to continue to build out those networks.
    Chairman Hall. Thank you. I yield back my time, Mr. 
Chairman.
    Chairman Quayle. I thank Chairman Hall for his questions.
    The Chair now recognizes the gentleman from Illinois, Mr. 
Lipinski, for five minutes.
    Mr. Lipinski. Thank you, Chairman Quayle. Thank you for 
holding this hearing today on this important issue. It is 
something I have been interested in for a while, even before 
the Administration announced their ``cloud-first'' policy, 
because I really think, as you talked about here today, that 
the cloud will have positive impacts on how the Federal 
Government researchers and the world will operate in the 
future. But I want to make sure that our implementation is done 
intelligently and we capitalize on the benefits while 
accurately assessing and mitigating the risks.
    So the first question I have is probably best for Mr. 
Capellas, Mr. Combs, and Dr. Reed. What are the challenges to 
ensuring, first of all, the physical security of the servers 
and the security of the data stored in the cloud and how would 
you recommend we address these challenges? We need to gain the 
public's trust, but we also need to make sure that we do have 
adequate security in the cloud. I had a couple amendments on 
appropriations bills. I was just trying to address this issue. 
I have concerns, especially if we are talking about the, you 
know, obviously the Federal Government with our appropriations 
bills if we are going to go to cloud computing is where these 
servers are placed in other countries, perhaps, if there are 
any risks to that? But just more generally, what are the risks? 
How do we do all that we can to maintain both the--like I said, 
the physical security of the servers and also, then, the data 
security?
    Mr. Capellas. Okay. We are going to tag team this right 
down the row.
    Mr. Lipinski. All right. Very good.
    Mr. Capellas. Very highly logical, we are simply going to 
go from right to left as we sit.
    I will start off at kind of 100,000 feet. So the first one 
is the question of cybersecurity and I know there has been, you 
know, multiple testimonies which I diligently read last night. 
The problem is enormous. The threats are now extremely 
sophisticated. We are no longer thinking about, you know, the 
guy in the garage but, you know, some of the most advanced 
minds in computer science and engineering in terms of very 
systemic threats. So one, it is real.
    The second is to realize that because we never built the 
original systems as they sit, don't think that by moving to 
another system or the cloud that it inherently says that what 
we have is fail proof because it is not. Every single security 
breaks at one point. The science of security says that you have 
data moving in three pieces in a system: one, data at rest 
where is it physically stored and is being used or the data 
is--think of it the data on your PC has records into it. The 
second one is called data in motion when the data is moving on 
a network, which is actually quite secure because we can 
analyze that network, we can see its patterns, we can see 
trends, we can analyze it.
    The third one when it is in use by an application or 
server, in which case that server is under control. The real 
risk to security is data that is at rest when it is sitting 
there. The second big risk--and this will happen and a 
prediction will be is that we will have a major disruption to 
the Internet over the next 18 months is not particularly bold.
    So the question is, when you think about a cloud, is it 
more or less secure? So the security answer says that you have 
to have an end-to-end view of how you think of all pieces with 
really the emphasis on how the data is sitting when it is at 
rest. And the second one is how do you mitigate interruption? A 
cloud by its definition says I am using resources. And as those 
resources are consumed, if I have a node or a computer that 
goes down, I can shift it to another one, isolate that node, 
and shut it down. You cannot do that in the convention.
    So theory number one is the cloud itself, by being able to 
utilize different resources really mitigates the risk that you 
take your whole network down. Pretty simple answer. If I have 
got four people sharing the workload, I lose one, the other 
three pick it up. If I got one person doing the work and he 
gets hurt, I am dead. All right? So the theory of the cloud 
says allocation of resources. So properly designed, denial of 
service is less risk.
    The second point, then, is data at rest. I can tell you 
right now having data centrally stored in a physical location 
under control of all of the analytical tools is much less risky 
than having data spread over many machines or PCs or small 
servers which are open to a network because it will always 
break. And you understand how attacks happen. You know, you 
probe the network to find the weakest link. Once you find the 
weakest link, you enter there.
    So the basic premise I would have is we have an enormous 
problem, networks break at their weakest link and attack data 
at rest. The cloud, when properly designed, allows you to 
offset the denial of service by being able to distribute the 
workload and secondarily the central storage of data is in its 
essence far more reliable again when properly--and so I think 
the answer is how do we use the cloud to make it more secure, 
not less secure?
    Dr. Reed. So I think one of the things that is important to 
remember is that nothing in this world is absolute and it is 
all about assessing risks and benefits. And I think the cloud 
is no exception.
    I think one corollary of that is we tend to equate through 
most of our lives location with security and that is a piece of 
the story, for sure, but it is by no means the only piece of 
the story. What it really means with any important asset--and 
clouds are no exception--is that one really thinks about a 
multifactor protection mechanism. There are certainly physical 
security issues that have analogs in our traditional approach 
to protecting things to physical security around a data center, 
the vetting of the people who manage and operate the data 
center for their reliability and trust. Then there is a whole 
set of best practices and operational mechanisms that one uses 
to manage that. And of course there are legal recourse that 
ultimately comes into play when there are data breaches.
    There is a perpetual cat-and-mouse game in the computing 
business between the attackers and the protectors. And what 
that means is we have to continually advance the state of the 
art. And that means Microsoft--and I know I speak for my 
colleagues here--we are continuing to invest in advancing the 
state of that technology. But it is a nuanced and complicated 
issue.
    I would suggest one concrete thing to consider which is an 
issue that the Cloud Commission Report mentioned explicitly and 
that is a need to revise some of our data breach laws because 
right now it is somewhat difficult to distinguish between the 
breach of an individual account and the possibility of breaches 
of many more of those. And they are fundamentally treated in 
very similar ways, and that means that it is very difficult to 
take sometimes the kind of concerted legal action between the 
private sector and government to deal with malicious behavior 
when it does occur.
    But it is a multifactor problem. Like all things, there is 
no silver bullet. It is a vigilance and continuing to advance 
and multifactor approach.
    Mr. Combs. Thank you for your question.
    I started my career 28 years ago at NSA working on 
encryption systems, so security is something I have always been 
critically interested in my entire career. Today--as I stated 
in my testimony, today's security architectures are--most of 
them are based around point security products. We have to move 
to a secure ecosystem. In any secure environment, you have the 
identities, those people and processes that you either want to 
give access to or deny access to your resources.
    At the other end of the spectrum you have the data. That 
data must either be available or restricted, however an 
organization's security policies exist. In between those two 
environments, you still have the brick-and-mortar. You have the 
applications, the networks, the storage, the servers. We have 
to have a way of applying consistent security policy across the 
technology stack. That is what we have to do to implement 
security in the cloud.
    And it is the secure ecosystem. It is moving the things in 
identities, right, the physical protection of the environment 
to a risk-based authentication. Why is an engineer going to the 
financial resources of a company? They shouldn't be going 
there. Look at the patterns of the users of the information and 
then you need to flag it or restrict access to it. Technology 
exists to do that today.
    Data loss prevention capabilities, right, they can be 
rapidly--they are widely adapted in the commercial world. If 
you have ever had to put your--back to identification, if you 
ever had to put your ZIP code in the gas station, you are using 
adaptive authentication. It is widely deployed. You can use 
that within the government on your own policies to provide 
access.
    And then restrict the information going out. The 
intelligence analyst, Bradley Manning in Iraq, right, had 
access, had the appropriate access to the environments and had 
appropriate right to go look at a cable, but there is no reason 
he should have downloaded 250,000 cables, right, to his CD-ROM. 
You can set policies around the data to prevent that. And in 
the absence of a policy, set a standard policy.
    These capabilities exist and we look forward to working 
with the government to implement them.
    Mr. Lipinski. Thank you.
    Chairman Quayle. Thank you, Mr. Lipinski.
    The Chair now recognizes the gentleman from Illinois, Mr. 
Hultgren, for five minutes.
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you all for 
being here, too. I apologize. I have a couple of committees 
meeting at the same time so I am a little bit late here.
    So I do know you have addressed some of my questions, but I 
would like to ask and get your thoughts on this. I know on 
Monday morning's Politico this week, the President of 
Information Technology Industry Council, Dean Garfield, was 
quoted, ``There are certain things Congress can do to help 
cloud computing and there are certain things they should not do 
at all.'' I would just ask if you could talk a little bit more 
of what are the things we should be doing? And I think you have 
touched on that a little bit with Chairman Hall's question and 
also Congressman Lipinski's question but maybe even more 
focused. What shouldn't we be doing? I mean where could we 
actually do more harm than good, which I think can happen here 
sometimes. So I would just appreciate thoughts you might have 
on that.
    Mr. Capellas. So I think what Congress--I am not sure what 
I am--to tell you what you shouldn't do but I will try to be 
proactive on it. The first one foremost is I think that there 
is a policy around the acquisition and how dollars are spent 
relative to it. And those tend to come up with each agency 
measuring a single point of unit like I was talking about 
before, you know, one computer, one PC. So somehow relaxing 
where there could be more cost collaboration relative to how 
money is spent. For example, you take four agencies together 
and create one cloud that is secure and private is better than 
each one doing differently and recognizing that perhaps that 
investment will be done in a way that is different from the 
normal. And I can't tell you how many times we get involved 
with very meaningful projects that have ROI only to get caught 
up in the actual procurement.
    I do want to acknowledge the work of the GSA, which has 
been extraordinary in terms of moving in a fast way, and I 
don't do that just because he is my colleague because it is 
very real.
    The second one that I would say is--and there has not been 
very many references to NIST--standardization is the key. All 
right. Now, obviously this group is probably not going to sit 
around and determine, you know, what the technical standards of 
feeds and speeds are, but to continue the promotion of 
standards, there was one that we addressed on, you know, the 
cloud is so much about trust and that trust is the end user. 
And we make several recommendations about what policies can be 
done relative to trust won by other governments trusting so 
that we can have global clouds, and the second one was already 
referred to as--when we know we have a breach and it is done, 
both companies should be required to have transparency in what 
they report, but there has to be some teeth in the law that 
allows them to go after the people who are really the bad guys.
    And so if I had to sort of summarize standards, acquisition 
policy, cross-border, and finally put some teeth into the laws 
that are required to enable that we have trust.
    Mr. Hultgren. Any others have thoughts of what we should be 
doing or, again, what we shouldn't be doing? And we need to 
hear from you what we shouldn't be doing and, you know, so I 
don't ever want you to feel like you can't tell us what we 
should stay away from because I think we need to hear that as 
well if there are places where we can meddle that I think we 
can cause more trouble.
    Mr. Capellas. Can I add one more?
    Mr. Hultgren. Absolutely.
    Mr. Capellas. I would also encourage you to read the 
report. Seventy-one companies, hours and hours of testimony, I 
have been doing this a long time like my colleagues. I have 
rarely seen people put their personal companies' interest aside 
and sort of come up with a report that is meaningful. Of 
course, I was the Co-Chair, so what am I going to say. But I do 
encourage you. It is an enormous amount of work by some of the 
brightest minds, and I do encourage you to read it.
    Mr. Hultgren. We will.
    Dr. McClure. If I can add as the government witness here, I 
think what you could really do to help tremendously is to tie 
this cloud agenda to improving the performance of government, 
saving money, improving service delivery. Those are the things 
that I think the American public really cares about. It is not 
about how many virtualized servers do we have sitting in data 
centers? I would agree with Michael the other push--the other 
two pushes are in the standards area, not the long-term 
decades-long standards approach but the more aggressive fast-
paced approach that NIST is adopting in this area.
    And the third thing is in a time when we are--we know we 
are under fiscal constraint and budgets are certainly going to 
be reduced, we must recognize that innovation still has to take 
place. And in many agencies, it is about allowing investment to 
actually get these capabilities in place. While it requires 
spending long-term, we are going to gain from it. So we can't 
lose sight of that either.
    Dr. Reed. I might add one last thing which is something I 
briefly mentioned in my opening remarks. In cloud computing, 
there is no doubt that the United States is the world leader 
right now. It is ours to lose in the future. And there is a 
major transformation taking place in the computing industry. It 
seems like they happen every other week, but this is a major, 
major one that will change lots of the ways that we think about 
not only the consumer side but the production side of 
computing. And so the first do-no-harm rule I absolutely 
believe because in these competitive times, it is important 
that we maintain that preeminence.
    Mr. Hultgren. Great. Thank you very much. My time has 
expired. I yield back. Thank you, Chairman.
    Chairman Quayle. Thank you, Mr. Hultgren.
    We will now move into the last round of questioning, and I 
will recognize myself.
    And Mr. Combs, this is actually a good segue from the last 
question, but how does the fundamental architecture of cloud 
computing influence the type of standards that are necessary? 
And then also when do you think that the standards should 
actually be put into place so that it wouldn't actually thwart 
any sort of innovation within the cloud? Because that would be 
the--really the last thing that we need. And then maybe touch 
briefly on some of the standards within the cloud that could be 
harmful in terms of actually beings barriers to entry for 
trade. And so how would we deal with all of those to make sure 
that we are not affecting trade, affecting innovation, but 
still coming up with the proper standards so that the cloud can 
be what it can be?
    Mr. Combs. Well, one of the biggest problems, right, is 
interoperability and data portability around clouds. One of the 
concerns about the government is being able--is getting vendor 
lock-in, right? So one of the reasons that EMC is a full 
supporter of open-based standards, we think that any technology 
that is implemented into a cloud environment should be based on 
open architectures. How do you connect to storage in the cloud? 
Simple SOAP and REST protocols exist to be able to access data 
anywhere in the cloud. If you enforce those, you create 
innovation. Industry is going to bring this innovation. The 
government is not going to develop it. So--but enforcing the 
open standards and not getting into proprietary stacks is 
probably the best way to continue evolution.
    I think Dr. McClure might be able to add a little bit there 
as well.
    Dr. McClure. You know, I agree, I think open architectures 
are absolutely key and I do believe that there are actually 
standard protocols that exist, SOAP, otherwise, that are easily 
workable into cloud environments. We have an enormous amount of 
work being done by NIST and industry partners to aggressively 
take a lot of existing standards and begin to move them into 
this environment rather than recreating whole new sets of 
standards, which is what we don't want to do to slow this down. 
So again, the aggressive approach that NIST is taking I think 
is the right way. Use case demonstrates standards viability and 
allow market solutions to adapt to them as fast as we can.
    Chairman Quayle. Great, thank you. I now recognize Mr. 
Lujan for five minutes.
    Mr. Lujan. Thank you, Mr. Chairman.
    Mr. Combs, even though it is your position that government 
won't develop the innovation, what happens if you don't have 
government as a client?
    Mr. Combs. What happens if we don't have government as a 
client? Well, I think----
    Mr. Lujan. Will cloud computing advance and make the 
advances that we are seeing now, will we reap the full benefits 
of what this could potentially be sooner rather than later?
    Mr. Combs. Well, as I testified last year before the 
Government and Oversight Committee, if you put something out in 
the public cloud today, in my opinion, the risk is too high for 
sensitive government data to go there. I think we have proven 
it doesn't take a security or a cloud expert to pick up the 
Washington Post and see the number of companies that have been 
breached, right? So I think there is always going to be a 
market for the Federal Government to maintain the sensitive 
data within private clouds in their organizations. So I think 
there will always be a marketplace.
    I think Microsoft has been very successful in standing up a 
private cloud to support the Federal Government, right? I think 
you will continue to see organizations stand up these 
capabilities to protect the sensitive nature of the data in the 
federal marketplace.
    Mr. Lujan. So a federal client is critical to the 
development of cloud or the future of cloud or it is an 
important customer?
    Mr. Combs. I think it is an important customer to continue 
to evolve the security required to meet what is called multi-
tenancy in cloud. I think it is very easy to have community 
clouds--we will say--give the Department of Defense----
    Mr. Lujan. Um-hum.
    Mr. Combs. --and the intelligence community or civil 
agencies, the FBI, law enforcement community. It is very easy 
to set multi-tenant security boundaries around similar types of 
data. But what I want to put--do you think Coca-Cola and Pepsi 
is going to have their intellectual property on the same cloud? 
It is probably not going to happen. So there is just this 
sensitive data in the commercial world that exists as there is 
in the Federal Government.
    Mr. Lujan. Absolutely.
    Mr. Combs. But the Federal Government will help drive the 
security around protecting information in the cloud.
    Mr. Lujan. I appreciate that.
    Dr. McClure, in your testimony you note that the 
continuation of GSA's cloud computing cost savings is dependent 
on fiscal year 2012 E-Gov Fund budget levels. Can you tell us 
what the fiscal year 2012 budget level request included for the 
E-Gov Fund and how that compares to funding levels currently 
proposed in the House and the Senate?
    Dr. McClure. Absolutely. And I am glad you are bringing it 
up. The E-Gov Fund has been the instrument by which the Federal 
Government over the last 3 fiscal years has fueled innovation 
like cloud computing. GSA has been the steward of a lot of 
monies and actually uses E-Gov funds to run the Cloud Computing 
Program Management Office, to produce the FedRAMP program and 
actually help and assist OMB in the data center consolidation 
analysis and produce things like the total cost model that the 
agencies are using now.
    The requested funding in '12 was for $34 million. The House 
mark came in at 15.8 million, which is a little bit less than a 
half, 50 percent reduction in that fund, and the Senate mark 
came in at 7.4, which is only a fifth of the money. When anyone 
gets less money than being requested, something has got to 
give. So that is our challenge I think is we are trying to use 
this fund to fuel innovation, to do cross-agency government-
wide work, not single-agency work. This is not GSA money. And 
if we reduce the funding levels down to those levels, you will 
have essentially what I could equate to as O&M work going on on 
existing projects rather than fueling new creative ways to save 
money for the government.
    Mr. Lujan. I appreciate that, Dr. McClure.
    And Mr. Chairman, I hope that is an area that we might be 
able to work together with colleagues on both sides of the 
aisle is if we talk about the importance of this, what it means 
to business, cost savings all around, and also the taxpayers 
that this is a place important for investment.
    The last line of questioning that I have, and I may only 
get to hear one answer and I will submit it to all of you for a 
response--and maybe I will just start with you, Mr. Capellas, 
is you stated that the physical underlying infrastructure is 
not important necessarily to the consumer, and I can appreciate 
that from the end consumer, but from a security perspective, I 
have a question around that that I would suggest that we should 
care where the components are. And what I am getting to is, 
one, would there be anyone that disagrees that we have enough 
domestic real estate associated with data server facilities to 
house our data centers? And two, shouldn't we be looking to 
increase our capacity with domestic data centers on U.S. soil, 
especially as we talk about the security of U.S. information?
    Mr. Capellas. So the first one is the--I think what is 
important is that the user shouldn't have to know or care where 
it is----
    Mr. Lujan. Um-hum.
    Mr. Capellas. --right? So that is--in terms of use----
    Mr. Lujan. I appreciate that.
    Mr. Capellas. From a security point of view, do we have 
enough real estate? We certainly have plenty of real estate. 
The question that we have as we start to develop these clouds 
is we have to understand that there are going to be some 
workloads--and that is how the cloud starts to think about what 
tasks are you trying to do on a workload--where it is not going 
to be relevant to where the data resides. I simply--I want a 
browser that I want to look at some price catalog. And I think 
we have to be sensitive and take a leadership point of view 
around the globe and so it says some workloads are going to 
reside in different places and we need to be savvy enough to 
say that those different workloads are going to be in different 
places. Other workloads are going to be critical to our 
national security, and those workloads need to take place in 
secure ways and secure places we know. And I think it is to 
having the wisdom to know which goes in which place that where 
we can share it globally, where we must lead and have it 
locally, and to know the difference between the two, because if 
we get too rigid on either side, then I think that is when we 
start to break down and we create mistrust.
    One of the things that the report does call out is we need 
to be cautious that if we get overly sensitive to not being 
able to want to have some global distribution that countries 
around the world will cease to have confidence in us, 
particularly relevant to some of the nature of some of the laws 
we have on the books today relevant to how data is viewed by 
law enforcement.
    So I will summarize. It is--we have plenty of real estate. 
A little of what my colleague Dr. Reed said is it is ours to 
lose. We need to think about the workloads and be sensitive to 
where global workloads are fine but to make sure that for those 
workloads that we really care about, that we do take the 
leadership in the United States and drive it here.
    Mr. Lujan. I appreciate it.
    Thank you, Mr. Chairman.
    Chairman Quayle. Thank you, Mr. Lujan.
    I would like to thank the witnesses for their valuable 
testimony and the Members for their questions. The Members of 
the Subcommittee may have additional questions for the 
witnesses, and we will ask you to respond to those in writing. 
The record will remain open for two weeks for additional 
comments and statements from Members. The witnesses are 
excused. Thank you all for coming. This hearing is now 
adjourned.
    [Whereupon, at 11:15 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Mr. Michael D. Capellas, Chairman and CEO,
Virtual Computing Environment Company

Questions submitted by Chairman Ben Quayle

Q1.  What steps can the U.S. government take to make sure other 
governments don't implement cloud computing standards that advantage 
their own domestic industries and serve as barriers to free trade.

A1. The U.S. should examine its own policies to ensure that U.S. 
companies or companies with U.S. influence and/or jurisdiction are not 
subject to U.S. based policies that serve as a barrier to their own 
success. In general, the U.S. government should encourage free trade 
and adopt international security and privacy frameworks rather than 
creating a standalone U.S. framework that can be positioned against 
U.S. owned or partially owned industries. As an example, the Patriot is 
already being publicly targeted by EU entities to promote EU cloud 
computing offerings. At least one EU company has publicly discussed a 
cloud offering where they will guarantee that data will not reside in 
the US, enter into infrastructure owned by U.S. entities or be subject 
to U.S. government confiscation. The U.S. should seek to influence and 
adopt existing international frameworks rather than creating a distinct 
framework for the U.S.

Questions submitted by Representative Ben Lujan

Q1.  What does the federal government need to do to ensure the security 
and privacy of a person or organization's information is protected?

A1. The industry should develop a service catalog (or service catalogs) 
for various categories of information, using industry standard language 
and metrics. Where the information is permitted to reside is based upon 
the categorization of data, the level of secureness of the data, and 
the policies associated with the service providers in the host nations. 
Policies should not overly restrict data based upon location. It is 
more important to ensure appropriate data security measures (advanced 
encryption, etc.) are applied to sensitive data.

Q2.  Why is strong identity management so important to accelerating the 
adoption of Cloud computing?

A2. In order for cloud computing to be successful and deliver the full 
benefits envisioned, it needs to be trusted and it needs to be secure. 
One of the most significant threats to infrastructure today is 
represented by identity theft, where hackers and evildoers gain access 
to information by pretending to be something they are not. In order to 
minimize the threat of identity theft, whether it be person or machine 
credentials, strong authentication and access controls are required. 
Measures like dual factor authentication can ensure that a user of 
entity is who they say they are, and that they have access rights to 
the information they are trying to access.

Questions submitted by Representative Randy Neugebauer

Q1.  What is the industry doing to establish best practices to protect 
and secure users' data and privacy rights? If standards are adopted how 
can we give them enough flexibility to allow the industry to evolve?

A1. The industry recognizes the potential for cloud computing to 
provide a more secure and easily protected model for computing than 
what exists today. Security threats are constantly evolving and as a 
result, the state of the art in security also evolve rapidly. The 
government should allow the market to evolve and advance security 
measures with minimal involvement. Government should refrain from 
imposing any security requirements on industry, recognizing that not 
all data has strict security requirements. The government should focus 
efforts on being aggressive in requiring industry to both report on 
their security provisions and, more importantly, to quickly disclose 
any security breaches. Having to disclose security breaches is the best 
way to protect other users, encourage providers to adopt the best 
security they can, and compete in the market based upon track record.

Q2.  How quickly have industries and businesses converted to cloud 
services? What factors might be inhibiting large scale moves away from 
traditional IT services to cloud services?

A2. Industry is moving very quickly to cloud, and the march is 
inevitable. Barriers are largely centered around organizational inertia 
and internal turf resistance. Cloud computing requires transformation 
of technology, people and processes. While transformation presents 
immense opportunity, it can also be perceived as a threat by those who 
resist change of any kind. In many cases, running a vastly more 
efficient and responsive IT organization means having less headcount 
and less budget and is therefore seen as a step backward in authority 
or standing. As cloud gains more traction, organizations that are slow 
to move to cloud will be at a competitive disadvantage, and this will 
serve to dissolve existing barriers.
Responses by Dr. Daniel A. Reed, Corporate Vice President,
Microsoft Corporation's Technology Policy Group

Questions submitted by Chairman Ben Quayle

Q1.  What steps can the U.S. Government take internationally to ensure 
that other countries do not implement cloud computing standards that 
advantage their own domestic industries and serve as barriers to free 
trade?

A1. There are two important things that the U.S. government can 
continue to do internationally to ensure that other countries do not 
implement cloud computing standards that advantage their own domestic 
industries and serve as barriers to free trade. First, the U.S. 
government can monitor other nations' promulgation of national 
standards and other technical measures and, via the U.S. Trade 
Representative, can express concerns if such standards appear to 
violate World Trade Organization rules or to be designed to benefit 
unfairly a nation's indigenous industries. The second, related, step 
the U.S. government can take is to lead by example. The government can, 
when considering its use of cloud services and associated standards, 
engage in the sort of behavior that it hopes to see in other nations. 
This includes recognizing the diversity of data and services that could 
move to the cloud and deploying standards and requirements in ways that 
allow federal agencies to access a variety of options to meet the 
performance, security, and other needs of specific deployments. This 
can be complemented by U.S. companies' participation in international 
activities related to standards and best practices, with the support of 
government expertise such as from the National Institute of Standards 
and Technology.

Q2.  It is important to let new business models like cloud computing 
flourish, yet at the same we cannot allow unscrupulous actors to use 
new technologies for infringement. Do you believe that Congress should 
act in this area to address criminal and infringing behavior as applied 
to cloud computing? If so, what steps would actions would you 
recommend?

A2. Cloud computing is a major technology inflection point with far-
reaching effects on the capabilities and empowerment of businesses, 
governments, scientists, and individuals, and significant economic and 
competitive benefits for the U.S. In addition, some individuals with 
the intent to defraud or infringe will seek to exploit the cloud. As 
new concerns with new forms of infringement arise, Microsoft believes 
that Congress should respond not by focusing on any specific technology 
(such as cloud computing) but rather by examining whether existing laws 
are adequate to address evolving forms of infringing behavior. 
Similarly, for criminal behavior related to cloud computing, the focus 
should be on examining evolving forms of attacks on computer systems 
and networks, including cloud computing services, and updating and 
strengthening criminal laws against those responsible, as noted in the 
CLOUD\2\ Commission report, Recommendation 3.

Q3.  In your response to Mr. Hultgren's question about which actions 
the government should not be taking in the cloud computing enterprise, 
you stated that you believe in the ``first do-no-harm rule.'' Can you 
provide examples of government cloud computing actions that could 
potentially be harmful? Are there any specific principles government 
should follow when determining whether action is appropriate?

A3. Some of the policy challenges created by the cloud relate to the 
exponential rate of change we are seeing in our technological 
capabilities. This pace can conflict with the pace at which government 
and society can evaluate the implications of the deployment of these 
new technologies. The best approach in such times is to establish 
policy goals and a flexible framework for achieving them, and to avoid 
focus on specific technological approaches that could chill innovation 
or quickly become outmoded.
    A specific example of flexibility that the U.S. government should 
embrace related to cloud computing can be seen in the above answer to 
Rep. Quayle's first question. Imposing overly constraining requirements 
or standards around all possible U.S. government uses of cloud could 
have a chilling effect on other nations' openness to cloud deployment, 
while nuanced approaches by the U.S. that recognize the different needs 
of various types of cloud applications would set a positive example for 
others.

Questions submitted by Representative Ben Lujan

Q1.  Security and privacy are often cited as concerns for cloud 
computing. Specifically, there is concern about the transnational flow 
of data and the possibility that confidential or proprietary 
information might be hosted in a data center located in a foreign 
country. What does the federal government need to do to ensure that the 
security and privacy of an individual or organization's information is 
protected?

A1. Security is a multifactor challenge. The physical location of a 
data center (and the steps taken to provide security for its physical 
plant) is only one component of many that help control access to data. 
Individuals and organizations need to understand the nature of the 
various types of data they handle and what their expectations are for 
its access and control before developing requirements for where it will 
be stored and processed. Decisions about the geolocation of data will 
have implications not only in terms of security, but also in terms of 
efficiency, redundancy, cost, and resiliency.
    One potential role for the federal government in this space is to 
lead by example. Agencies can, when evaluating their potential use of 
cloud services, recognize the different types of data they holds and 
deploy targeted security and privacy requirements for different classes 
of information and applications. The government can also, in assessing 
security, recognize that it is critical to focus on how data is 
secured--i.e., are there adequate processes in place to protect the 
data against an evolving threat landscape. In the context of this 
evolving landscape, it can also continue to support basic research in 
cybersecurity, as new defenses and approaches will be needed in the 
future.

Questions submitted by Representative Randy Neugebauer

Q1.  What is the industry doing to collaborate or establish best 
practices that will ensure that users' data will be secure in the cloud 
and privacy rights will be protected? Are there any areas which require 
Congressional direction to ensure a high level of safety in this 
regard? If standards are adopted, how can we ensure that they give 
enough flexibility to allow the industry and the technology to evolve?

A1. Microsoft and other companies are engaged in a variety of 
activities related to best practices around security and privacy. One 
example, in which Microsoft is a participant, is the Software Assurance 
Forum for Excellence in Code (SAFECode), a global, industry-led effort 
to identify and promote best practices for delivering more secure and 
reliable software, hardware, and services. Another is the privacy, 
confidentiality, and compliance framework for data governance that 
Microsoft has developed and publicly released so it can be adopted and 
implemented by organizations of all sizes.
    In thinking about Congressional action, it is important to 
recognize that consumer expectations regarding online privacy are 
continually evolving as the technology evolves. For this reason, and to 
allow companies the flexibility to innovate, Congress needs to be very 
careful when considering legislation related to privacy and security. 
However, there are two areas with regard to online privacy where 
Microsoft has supported the idea of federal legislation. One is a 
comprehensive federal privacy law; and more information on Microsoft's 
view on the policy context for such a law is at http://
go.microsoft.com/?linkid=9768689. The second is the updating of the 25-
year-old Electronic Communications Privacy Act to maintain a balance 
between the privacy expectations of users and the needs of law 
enforcement in a way that reflects how people use information 
technology, including the cloud, today. In this area, Microsoft is a 
member of the Digital Due Process Coalition (http://
digitaldueprocess.org/).

Q2.  In a broad sense, how quickly have industries and businesses 
converted to cloud computing services? What factors, if any, might be 
inhibiting large scale departure from traditionally internal IT 
services to cloud computing services to save on overhead costs?

A2. Many industries and businesses have embraced cloud services. A 
particular niche that innately appreciates the value of cloud is start-
up technology businesses, which value the inherent flexibility of 
cloud--the ability to scale up or down their information technology 
resources depending on demand or current business phase, and the 
ability to shift expenses from up-front costs to purchase information 
technology hardware to pay-as-you-go-only-for-what-you-use models. In 
general, many industries and government are moving forward with cloud 
services. In some cases, they are replacing existing information 
technology systems with capabilities that are similar but are deployed 
using the cloud (e.g. email). In other cases, they are exploring how 
cloud actually will provide new capabilities and opportunities, e.g. 
for global, multi-party and neutral collaborations, or for flexible and 
rapid exploration of new products and services by existing businesses. 
While these latter applications may be emerging more slowly, they will 
have a significant impact on many sectors and on our economy as a 
whole.
Responses by Mr. Nick Combs, Federal Chief Technology Officer, EMC 
        Corporation

Questions submitted by Chairman Ben Quayle

Q1.  What steps can the U.S. Government take internationally to ensure 
that other countries do not implement cloud computing standards that 
advantage their own domestic industries and serve as barriers to free 
trade?

A1. It is important for the U.S. Government to advocate for alignment 
of cloud computing standards (in areas such as interoperability, 
mobility and security) that align with current and evolving global 
industry standards. The U.S. Government should also push back on 
countries that try to impose domestic or indigenous standards in bi-
lateral and multi-lateral trade negotiations. For example, there are 
efforts by some countries to advance specific information security or 
encryption requirements that could deter the adoption of cloud 
computing infrastructure and services provided by multi-national 
corporations in those markets. In addition, it is important for the 
U.S. government and other governments internationally to resist 
mandates or laws that would require a specific cloud deployment model. 
The U.S. Trade Representatives and the U.S. Department of Commerce can 
continue to play important roles in advancing effective policies in 
these areas internationally.

Questions submitted by Representative Ben Lujan


Q1.  Security and privacy are often cited as concerns for cloud 
computing. Specifically, there is concern about the transnational flow 
of data and the possibility that confidential or proprietary 
information might be hosted in a data center located in a foreign 
country. What does the federal government need to do to ensure that the 
security and privacy of an individual or organization's information is 
protected?

A1. When implemented correctly, cloud environments can be much more 
secure than today's IT environments. The level of transparency cloud 
vendors provide is a critical aspect when choosing a cloud partner. Via 
the regular procurement and contractual process, U.S. federal agencies 
should take a trust-but-verify approach. Cloud vendors should be 
required to provide the tools and capabilities to allow customers 
visibility into their cloud environments to ensure compliance with 
those SLAs. SLAs should be clearly defined and monitored by government 
customers to ensure maximum service value is received for budget 
dollars spent. For instance, SLAs in areas of performance, 
availability, backup and recovery, archive, continuance of operation, 
and disaster recovery must be clearly stated, measured, and monitored 
by the government agencies. Additionally, government risk and 
compliance capabilities need to be deployed and dashboards provided to 
the customer to ensure that our information is protected and the 
policies are being followed.

Questions submitted by Representative Randy Neugebauer

Q1.  What is the industry doing to collaborate or establish best 
practices that will ensure that users' data will be secure in the cloud 
and privacy rights will be protected? Are there any areas which require 
Congressional direction to ensure a high level of safety in this 
regard? If standards are adopted, how can we ensure that they give 
enough flexibility to allow the industry and the technology to evolve?

A1. Best practices such as risk-based authentication should also be 
implemented in cloud environments and we think that that approach fits 
well within the President's National Strategy for Trusted Identities in 
Cyberspace (NSTIC) which was released earlier this year. This important 
effort, which is being coordinated by the NSTIC Office at NIST in 
collaboration with the private sector, should be supported by the U.S. 
Congress.
    NIST has played an instrumental role in the development of the 
Authorization Management Program (FedRAMP) and NIST Security Content 
Automation Protocol (SCAP). FedRAMP is a voluntary, General Services 
Administration (GSA)-led initiative to develop and provide a standard 
approach to assessing and authorizing cloud computing services and 
products for use by Federal agencies. The NIST SCAP standard enables 
the automation of reporting and verifying IT security controls. SCAP 
provides an effective method to capture, test and continuously monitor 
these controls.
    Both of these initiatives are important steps in the transition of 
the Federal Government from the old FISMA focus on compliance, to 
better operational risk management and continuous monitoring under the 
new FISMA. This process is critical for improving cyber security today 
as well as positioning the federal government to fully utilize the 
transition to the cloud to help improve cyber security. Congress should 
update FISMA.
    Congress should reduce the regulatory complexity that businesses 
and critical infrastructure organizations have to deal with complying 
with myriad state data breach disclosure laws in the U.S. In an 
advanced threat environment, it does not make sense to have 
organizations devoting their resources and focus to complying with 46 
separate state laws on breach notification when they need to invest 
more time and resources in managing operational cyber security risks. 
Simplifying the compliance requirements with a reasonable and uniform 
federal standard (with preemption of the existing state laws) would 
allow security organizations to focus more on risk management.

Q2.  In a broad sense, how quickly have industries and business 
converted to cloud computing services? What factors, if any, might be 
inhibiting large scale departure from traditionally internal IT 
services to cloud computing serves to save on overhead costs?

A2. A shift to cloud computing is a journey that occurs in phases. 
EMC's own journey to the cloud has provided significant savings and 
efficiency. In both industry and government, we are seeing data center 
consolidation move forward--with the associated cost savings--in tandem 
with organization' transition to cloud infrastructure and services.
Responses by Dr. David L. McClure, Ph.D., Associate Administrator, 
        Office of
Citizen Services and Innovative Technologies, General Services 
        Administration

Questions submitted by Chairman Ben Quayle

Q1.  What steps can the U.S. Government take internationally to ensure 
that other countries do not implement cloud computing standards that 
advantage their own domestic industries and serve as barriers to free 
trade?

A1. The National Institute of Standards and Technology (NIST) has the 
lead federal role in standards setting. NIST is actively encouraging 
the establishment of international, consensus based standards, which is 
one of the primary recommendations of the recently published NIST Cloud 
Computing Roadmap. In fact, the NIST definition of cloud computing was 
the U.S. contribution to the International Committee for Information 
Technology Standards (INCITS). International standards are critical to 
avoid development of country specific standards that may create 
barriers to trade. The broad adoption of international standards 
ensures a level playing field and fair trading conditions for all 
products and services, both in the U.S. and overseas.

    In addition, the Department of Commerce, Department of State, and 
other Federal agencies are working on policies that will ensure that 
differences between the U.S. approach to data privacy and security, and 
those of our international partners, do not become barriers to the 
global free flow of information. This approach involves the development 
of domestic policy recommendations and engagement with industry and our 
trading partners.

Questions submitted by Representative Ben Lujan

Q1.  Security and privacy are often cited as concerns for cloud 
computing. Specifically, there is concern about the transnational flow 
of data and the possibility that confidential or Proprietary 
information might be hosted in a data center located in a foreign 
country. What does the federal government need to do to ensure that the 
security and privacy of an individual or organization's information is 
protected?

A1. The Federal Risk and Authorization Management Program (FedRAMP) has 
been established to provide a standard approach to Assessing and 
Authorizing (A&A) cloud computing services and products. Leveraging a 
common security approach and baseline will not only allow for greater 
efficiency, but will ensure the entire Federal Government and Cloud 
Service Providers are working together to ensure government and citizen 
information stored in the cloud is protected and privacy concerns are 
addressed. Government contracts for cloud computing services and 
solutions require compliance with the Federal Information Security 
Management Act of 2002 (FISMA). FISMA establishes a strict set of legal 
requirements for information security that apply to all federal 
information systems, including those implemented through cloud 
computing. These requirements and guidelines apply regardless of where 
data is stored. It is essential that federal acquisition professionals 
and contracting officers be knowledgeable in the latest requirements 
and take advantage of common contract language that is helpful to 
address key issues specific to cloud computing solutions.
    With respect to privacy, the Federal CIO recently released the 
FedRAMP Memorandum, which indicates that the CIO Council will ``publish 
the standardized baseline of security controls, privacy controls, and 
controls selected for continuous monitoring'' from NIST SP 800-53. See 
Memorandum for Chief Information Officers, Security Authorization of 
Information Systems in Cloud Computing Environments, Dec. 8, 2011, p 5. 
The controls at issue are based on existing Federal privacy law. Under 
this provision, Federal agencies should take steps to ensure that they 
consider and implement the appropriate controls before releasing 
sensitive or personal information into a cloud solution. The Memorandum 
also requires previously deployed solutions to meet these requirements 
within a fixed period of time, which should mitigate the risks you 
identified.

Questions submitted by Representative Randy Neugebauer

Q1.  What is the industry doing to collaborate or establish best 
practices that will ensure that users' data will be secure in the cloud 
and privacy rights will be protected? Are there any areas which require 
Congressional direction to ensure a high level of safety in this 
regard? If standards are adopted, how can we ensure that they give 
enough flexibility to allow the industry and the technology to evolve?

A1. Cloud policies and standards are being developed in collaboration 
with industry and other stakeholders to ensure acceptable balance of 
risks and benefits of cloud computing. Congress should continue to 
encourage cloud adoption by ensuring sufficient resources are invested 
in programs such as FedRAMP and Cyberscope. The Cloud Security Alliance 
works with industry and governments across the world regarding best 
practices for cloud security. Their mission statement is: To promote 
the use of best practices for providing security assurance within Cloud 
Computing, and provide education on the uses of Cloud Computing to help 
secure all other forms of computing.

Q2.  In a broad sense, how quickly have industries and businesses 
converted to cloud computing services? What factors, if any, might be 
inhibiting large scale departure from Traditionally internal IT 
services to cloud computing services to save on overhead costs?

A8. Data collected on both industry and public sector movement to cloud 
solution indicates steady, pervasive interest and broad adoption as an 
inevitable technology market direction. Key barriers and mitigations 
are shown in the table below.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                              Appendix II

                              ----------                              


             Additional Materials Submitted for the Record





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                              <all>




</pre></body></html>
